<html>
<title> - IRS OBSTRUCTION: LOIS LERNER'S MISSING EMAILS, PART II</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





         IRS OBSTRUCTION: LOIS LERNER'S MISSING EMAILS, PART II

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2014

                               __________

                           Serial No. 113-127

                               __________

Printed for the use of the Committee on Oversight and Government Reform







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-596 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2014....................................     1

                               WITNESSES

Ms. Jennifer O'Connor, Office of the White House Counsel, The 
  White House
    Oral Statement...............................................     6
The Hon. David S. Ferriero, Archivist of the U.S., National 
  Archives and Records Administration
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Paul Wester, Chief Records Officer, National Archives and 
  Records Administration
    Oral Statement...............................................    12

                                APPENDIX

Opening Statement of Chairman Issa...............................    76
June 18, 2014, letter from the White House to Reps. Camp and 
  Wyden, submitted by Rep. Horsford..............................    81
Opening Statement of Rep. Cummings...............................    82
Aug 29, 2013, NARA Bulletin, subject: Guidance, submitted by Rep. 
  Duckworth......................................................    84
Nov. 21, 2013, TIGTA Press Release, submitted by Chairman Issa...    90
June 23, 2014, letter from the White House to Chairman Issa......    92
May 14, 2013, TIGTA Highlights of a report, submitted by Rep. 
  Lynch..........................................................    94
April 7, 2014, Majority Staff Report ``Debunking the Myth that 
  the IRS Targeted Progressives'' submitted by Chairman Jordan...    95
Aug. 2, 2013, letter from IRS to Chairmen Issa and Jordan, 
  submitted by Rep. Davis........................................   142
June 18, 2014, Politico Article ``White House hits back in IRS-
  Lois Lerner flap''.............................................   149
Letter providing update on IRS document productions to Congress..   150
 
         IRS OBSTRUCTION: LOIS LERNER'S MISSING EMAILS, PART II

                              ----------                              


                         Tuesday, June 24, 2014

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:35 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, Duncan, 
McHenry, Jordan, Chaffetz, Walberg, Gosar, Meehan, DesJarlais, 
Gowdy, Farenthold, Lummis, Woodall, Collins, Meadows, 
Bentivolio, DeSantis, Cummings, Maloney, Norton, Tierney, Clay, 
Lynch, Connolly, Speier, Duckworth, Kelly, Davis, Welch, 
Horsford, and Lujan Grisham.
    Staff Present: Molly Boyl, Deputy General Counsel and 
Parliamentarian; Lawrence J. Brady, Staff Director; David 
Brewer, Senior Counsel; Ashley H. Callen, Deputy Chief Counsel 
for Investigations; Sharon Casey, Senior Assistant Clerk; Steve 
Castor, General Counsel; Drew Colliatie, Professional Staff 
Member; John Cuaderes, Deputy Staff Director; Adam P. Fromm, 
Director of Member Services and Committee Operations; Linda 
Good, Chief Clerk; Tyler Grimm, Senior Professional Staff 
Member; Erin Hass, Senior Professional Staff Member; Frederick 
Hill, Deputy Staff Director for Communications and Strategy; 
Christopher Hixon, Chief Counsel for Oversight; Mark D. Marin, 
Deputy Staff Director for Oversight; Ashok M. Pinto, Chief 
Counsel, Investigations; Jeffrey Post, Senior Professional 
Staff Member; Laura L. Rush, Deputy Chief Clerk; Jessica Seale, 
Digital Director; Andrew Shult, Deputy Digital Director; 
Jonathan J. Skladany, Deputy General Counsel; Peter Warren, 
Legislative Policy Director; Rebecca Watkins, Communications 
Director; Aryele Bradford, Minority Press Secretary; Susanne 
Sachsman Grooms, Minority Deputy Staff Director/Chief Counsel; 
Jennifer Hoffman, Minority Communications Director; Elisa 
LaNier, Minority Director of Operations; Juan McCullum, 
Minority Clerk; Valerie Shen, Minority Counsel; Donald Sherman, 
Minority Chief Oversight Counsel; Katie Teleky, Minority Staff 
Assistant; and Michael Wilkins, Minority Staff Assistant.
    Chairman Issa. Good morning. The committee will come to 
order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    As I said last night late for many of you, and I say again 
this morning, the Oversight Committee exists to secure two 
fundamental principles: First, Americans have a right to know 
that the money Washington takes from them is well spent; and 
second, Americans deserve an efficient, effective government 
that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers, because taxpayers 
have a right to know what they get from their government. It's 
our job to work tirelessly, in partnership with citizen 
watchdogs, to deliver the facts to the American people and 
bring genuine reform to the Federal bureaucracy. This is our 
mission, this is our passion, and this is what we are here for 
today.
    The committee meets today to continue our effort to get to 
the truth about the IRS's targeting of conservative groups. 
Last night, we heard testimony from the Commissioner about how 
and why the IRS came to not save and, in fact, to destroy the 
disk drive that contained emails of the now well understood and 
criminally charged by the House former head of the Exempt 
Organizations, Lois Lerner. And I say that again: Lois Lerner 
has been referred for criminal charges, multiple criminal 
charges by the Ways and Means Committee and held in contempt by 
the full House. Her disk drive is missing.
    His testimony included a number of significant admissions 
and facts. For example, the Commissioner testified that he has 
seen no evidence that there was any attempt in 2011 to retrieve 
6 months of lost Lois Lerner emails from backup tapes or, in 
fact, from the main hard drive of the server. He testified that 
he does not know who at the IRS was involved in leaking the 
knowledge about Lois Lerner's emails to Treasury and on to the 
White House. He further testified that he did not believe 
leaking to the White House was a problem because the White 
House itself does not leak information. We will chalk that one 
up to naive, not perjury. He testified that because he does not 
know what was in Lois Lerner's email, he has no grounds to 
believe they contain Federal records.
    While I appreciate his time and effort, our relationship 
with the IRS and the Commissioner was not improved by his 
disappointing performance. In fact, one of the most troubling 
portions of his testimony was to tell us that someone, who he 
could not name, who worked for him, had told him sometime in 
the entire month of April, not the 1st of April, not the 15th 
of April, when we all have to pay our taxes, and not the end of 
April, but just sometime in a 30-day period someone, he could 
not remember, had told him one of the most important pieces of 
information any of us could imagine, that thousands, tens of 
thousands, or perhaps more emails of Lois Lerner were gone 
forever.
    I hope the witnesses before us today can help us understand 
further how we can have an agency that expects all Americans to 
maintain critical documents for at least 7 years and, in fact, 
the agency itself systematically destroys records after 6 
months. They are worried about data integrity for a 
catastrophic event but not for criminal wrongdoing of their own 
employees, not for waste, fraud, and abuse within the agency.
    This is an agency the Commissioner was sent to fix. This is 
an agency that had lavish partners and did not even live up to 
the requirement for tax filing by its own members when it held 
a party, complete with a very expensive video, at Disneyland. 
This is an agency that targeted conservatives for their 
political beliefs, that asked them for who their donors were 
and whether they said prayers at the beginning of an event. 
What they did in every way and held out their application for 
501(c)(4) like a carrot, never informing them that even the 
President's 501(c)(4) wasn't registered.
    Today, the committee will hear testimony from Jennifer 
O'Connor, a former IRS attorney who directly managed the IRS's 
production, or lack thereof, of documents to this committee and 
others. During a transcribed interview last year, IRS Chief 
Counsel William Wilkins testified that Ms. O'Connor was one of 
the two key supervisors overseeing the IRS' response to 
congressional oversight. In fact, Ms. O'Connor was hired by the 
IRS for the sole purpose of overseeing the agency's response to 
congressional investigations of the targeting scandal. From May 
2013 to November 2013, Ms. O'Connor led the IRS' response to 
congressional oversight of the IRS' targeting of conservatives.
    In May of this year, Ms. O'Connor was promoted to the White 
House Counsel's office to work on responding to all 
congressional oversight across the entire administration. The 
IRS supposedly has spent $10 million in its response to 
Congress. I am hoping Ms. O'Connor will enlighten us about how 
the IRS spent so much of the taxpayers' money but supposedly 
took them over a year to realize 2 years of emails from the 
most critical witness had gone missing and, in fact, that same 
year since she first took the Fifth. The idea that the IRS just 
didn't notice is without believability.
    We will also want to know from Ms. O'Connor how the White 
House came to have insider knowledge about Ms. Lerner's missing 
emails and, more broadly, what role the White House plays in 
this investigation.
    Today we will also hear from the Archivist of the United 
States, David Ferriero, about the rules and regulations for 
preserving Federal records. These laws include the Federal 
Records Act that were put in place precisely for the purpose of 
preserving important Federal records. In particular, I want to 
ask the Archivist about one claim the Commissioner made last 
night. The Commissioner said the IRS did not report a loss or 
destruction of Federal records because there is no way to know 
what was in Ms. Lerner's missing emails. But, in fact, we do 
know some things about where--that were in Ms. Lerner's lost 
emails. We know that, from 2010, email correspondence we found 
at the Department of Justice, that Ms. Lerner sent over 1.1 
million pages of a database to assist the possible prosecution 
of those same groups that were targeted, and that that 
information included 6103 personal identifiable information, 
including donors.
    I am hoping the Archivist can offer an opinion about 
whether such correspondence and documents are, in fact, covered 
by the Federal Records Act and whose loss and destruction would 
and should have been reported in 2011.
    The hearing today continues the committee's oversight 
efforts of the IRS' targeting to get to the basic answers for 
the American people. The committee will continue to 
aggressively search for answers about how and why the IRS 
allowed to be destroyed Lois Lerner's emails. This information 
is critical to the committee's investigation of the IRS 
targeting of conservative organizations.
    I might add in closing, the Archivist is a welcome friend 
of this committee. The Archives fall within our primary 
jurisdiction. We take great pride in the work that the National 
Archives does. Just last night, very proudly, I showed to the 
Commissioner and put in the record a little piece of history of 
General Jackson demanding that his government in 1803 return 
some of the tax revenue taken from him for liquor that could 
never be produced because his still burned. That is a piece of 
history that was not covered by the Federal Records Act. But 
because of the unique work that National Archives does, often 
with volunteers from around America who come and study and 
research, we know what we did not know then and would have not 
ever demanded to store.
    So I would say here today to my ranking member and to all 
the members of the committee, the Federal Records Act is a 
minimum of what must be stored. But there can be no limit to 
the maximum of what will benefit generations unborn if we can 
preserve a greater amount of documents with the massive 
capability that our electronic era gives us.
    With that, I recognize the ranking member.
    Mr. Cummings. Good morning.
    And I welcome the opportunity to hear this morning from the 
Archivist of the United States about outstanding challenges at 
Federal agencies with electronic records retention. During the 
Bush administration, Federal agencies admitted to losing 
millions, millions of emails related to ongoing congressional 
and criminal investigations, including the U.S. attorney 
firings and the outing of covert CIA agent Valerie Plame, and a 
host of other matters.
    Our committee played an integral role in investigating 
these problems. Representative Henry Waxman, our former 
chairman, engaged in a constructive effort to find solutions to 
these challenges. He hosted monthly meetings with the Archivist 
and the White House Counsel's Office to monitor progress in 
implementing recommendations.
    I believe the Archivist would agree with his predecessor 
that those meetings served a useful purpose.
    Today, the White House system automatically preserves 
emails from all employee email accounts. Since 2008, there has 
been additional progress. On November 28, 2011, President Obama 
issued a directive to agencies managing Federal records. The 
President also directed the Archivist and the Director of the 
Office of Management and Budget to craft a modernized framework 
to improve agency performance and begin managing email records 
in electronic formats by 2016. I look forward to hearing a 
status report on these efforts.
    Also, the Archivist, Mr. Ferriero, will give us his view on 
legislation I introduced last year, the Electronic Message 
Preservation Act, which would require Federal agencies to 
preserve email records electronically. The committee voted on a 
bipartisan basis to approve my legislation, but it has 
languished since then. And the Republican leaders have declined 
to bring it to the floor for a vote. Although today's hearing 
could have the potential to help improve agency systems for 
managing electronic records, I was just made last night that 
Chairman Issa issued a unilateral subpoena to compel Ms. 
O'Connor to appear here today. Today's hearing title is, ``Lois 
Lerner's Missing Emails.''
    It is true that Ms. O'Connor used to work at IRS. She 
worked there from May to November of last year. The problem is 
that Ms. O'Connor left the IRS 7 months ago, in 2013, well 
before these recent discoveries about Lois Lerner's emails. As 
Commissioner Koskinen testified last night, IRS officials 
learned there was a potential problem in February of 2014. And 
it was not until May of 2014 that they understood the scope of 
the problem, completed their investigation, and determined the 
extent to which emails were available or not.
    Ms. O'Connor left the IRS before any of these discoveries 
occurred. So why is she here? According to the chairman's own 
press release, it's not because of her old job; it's because of 
her new one. She currently works at the White House Counsel's 
Office. She has worked there for less than a month. One month. 
But apparently that's enough to warrant a subpoena from the 
committee.
    Last night, the Republicans demanded to know when the White 
House first became aware that the IRS was having difficulty 
locating Ms. Lerner's emails. I am sure my colleagues will 
repeat those questions today over and over and over and over 
again. But we already know the answer. The White House sent a 
letter to Congress on June 18th, and it said this, ``In April 
of this year, Treasury's Office of General Counsel informed the 
White House Counsel's Office that it appeared Ms. Lerner's 
custodial email account contained very few emails prior to 
April 2011 and that the IRS was investigating the issue and, if 
necessary, would explore alternate means to locate additional 
emails.'' That was in April.
    But Ms. O'Connor did not start her job at the White House 
until at least a month later.
    I ask unanimous consent to enter this June 18th letter into 
the record.
    Chairman Issa. Without objection, so ordered.
    Mr. Cummings. Today's hearing is not about policy. Today's 
hearing is not about policy or substance. It's about politics 
and press. Today, Ms. O'Connor will join the ranks of dozens of 
other officials during Chairman Issa's tenure who have been 
hauled up here unnecessarily, without a vote, without any 
debate, as part of a partisan attempt to generate headlines 
with unsubstantiated accusations against the White House. 
Regardless of how many times the Republicans claim the White 
House was behind the IRS actions, there is still no evidence, 
none, that the White House was involved in any way with 
screening applicants for tax-exempt status. No one of the 41 
witnesses we have interviewed has identified any evidence of 
White House involvement or political motivation. Not one. And 
the inspector general has also, by the way, who was appointed 
by President Bush, has also identified no evidence to support 
these baseless claims. Issuing a subpoena to a White House 
lawyer does not change that fact.
    I sincerely hope that today's hearing will focus on a 
serious examination of the longstanding and widespread 
challenges of retaining electronic records and on constructive 
solutions. And I actually look forward to the statements of our 
witnesses.
    With that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    Members may have 7 days to submit opening statements for 
the record.
    It's now my pleasure to welcome our panel of witnesses. Ms. 
Jennifer O'Connor is an attorney currently in the Office of the 
White House Counsel and, prior to that, as Mr. Cummings said, 
worked as the primary deliverer of discovery to this committee 
while at the IRS.
    The Honorable David Ferriero is the Archivist of the United 
States at the National Archives and Records Administration. 
Additionally, Mr. Ferriero has asked that he be accompanied by 
Paul Wester, the chief records officer at the National Archives 
and Records Administration.
    And as I understand and I ask unanimous consent that he 
also be allowed to join the panel and answer questions. And he 
will be sworn in. And my understanding, for all of us, is that 
in fact Mr. Wester is the man most knowledgeable of and working 
with the CIOs throughout government to ensure that the Records 
Act, or the Federal Records Act and Presidential Records Act, 
are adhered to and, as a result, is in fact--and Mr. Ferriero, 
I appreciate your bringing him--the man who probably knows the 
most about what has been asked of government and what 
government could and should deliver, and at what budget.
    So, with that, I would ask that you all please rise 
pursuant to the committee rules and take the oath.
    Please raise your right hands. High, please.
    Thank you.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth? Thank you.
    Please be seated. Let the record reflect that all witnesses 
answered in the affirmative.
    For those who have not testified here before, there is a 5-
minute clock in front of you. I do not gavel people at 5 
minutes, but I would ask that as you see it go yellow, 
summarize. As you see it go red, bring it to a conclusion as 
quickly as possible.
    Ms. O'Connor, please give us your opening statement.

                       WITNESS STATEMENTS

                 STATEMENT OF JENNIFER O'CONNOR

    Ms. O'Connor. Chairman Issa, Ranking Member Cummings, and 
members of the committee, my name is Jennifer O'Connor. I am an 
attorney by training. I practiced for many years at the law 
firm Wilmer Hale, where I managed large complex litigation 
matters.
    On May 30 of 2013, I joined the IRS as counselor to Acting 
Commissioner Werfel. I left that position on November 30th of 
2013. I understand the committee is interested in my time at 
the IRS, and I look forward to answering all of your questions 
today. Thank you.
    Chairman Issa. Thank you.
    Mr. Ferriero.

          STATEMENT OF THE HONORABLE DAVID S. FERRIERO

    Mr. Ferriero. Chairman Issa, Ranking Member Cummings, and 
members of the committee, thank you for this opportunity to 
provide testimony on maintaining email records in Federal 
agencies and NARA's response to the recent reports regarding 
the alleged unauthorized disposal of email records at the IRS.
    Accompanying me today is Paul Wester, the chief records 
officer of the United States Government and a member of my 
senior management.
    First, concerning the reported unauthorized disposal, 
Federal agencies are responsible for preventing the 
unauthorized disposition of Federal records, including their 
unlawful or accidental destruction, deletion, alteration, or 
removal from Federal custody. Agencies should carefully monitor 
the implementation of approved record schedules to prevent such 
unauthorized destruction.
    In accordance with the Federal Records Act, when an agency 
becomes aware of an incident of unauthorized destruction, they 
must report the incident to us. The report should describe the 
records, the circumstances in which the unauthorized 
destruction took place, and the corrective steps being taken to 
properly manage the records in the future. If we hear about the 
incident before the agency has reported it, we will notify the 
agency and request similar information. The goal of this 
process is to ensure that the circumstances that may have led 
to the loss of Federal records are corrected and not repeated.
    NARA learned of the alleged unauthorized disposal of the 
IRS records through a letter, dated June 13th, 2014, from the 
IRS to Senators Wyden and Hatch. In this letter, the IRS 
reported the loss of email records of Lois Lerner, the former 
head of IRS Exempt Organizations Division, dating from 2009 to 
2011, as a result of the failure of a hard drive.
    Accordingly, NARA asked the IRS to investigate the alleged 
disposal of records, and whether it was broader than was 
reported in the June 13th, 2014 letter. As is typical when we 
send a letter such as this, we asked for a response within 30 
days.
    On a daily basis, NARA staff and records and information 
professionals in each Federal agency work to ensure records 
management policies and practices meet the needs of the 
agencies, protect the rights and interests of the government 
and its citizens, and identify the permanently valuable records 
that document the national experience.
    In November 2011, the President issued a memorandum on 
managing government records, which resulted in the Archivist of 
the United States and the Director of OMB issuing the Managing 
Government Records Directive in August 2012. It has two high 
level goals: First, require electronic record keeping to ensure 
transparency, efficiency, and accountability; and second, 
demonstrate compliance with Federal records management statutes 
and regulations. There are a number of activities associated 
with each of these goals, but the two major actions are by the 
end of 2016, Federal agencies must manage all email records in 
an electronic format, and by the end of 2019, all permanent 
electronic records in Federal agencies will be--all permanent 
records in Federal agencies will be managed electronically to 
the fullest extent possible.
    The effective management of email is a central animating 
issue for the National Archives as we work to meet the 
requirements of the directive. To help agencies meet the goal 
of managing their email in electronic form by the end of 2016, 
NARA has issued updated email guidance, known as Capstone. NARA 
developed the Capstone approach as part of our ongoing efforts 
to evaluate how agencies have used various email repositories 
to manage email records. They provide agencies with a workable 
and cost-efficient solution to email records management 
challenges, especially as they consider cloud-based solutions. 
It also offers the agencies the option of using a simplified 
and automated approach to manage email, as opposed to either 
print and file or click and file systems that require staff to 
file individual email records. The Capstone approach allows for 
the capture of records that should be preserved as permanent 
from the accounts of officials at or near the top of an agency 
or an organizational subcomponent. An agency may designate 
email accounts of additional employees as Capstone when they 
are in positions that are likely to create or receive permanent 
email records. Following this approach, an agency can schedule 
all of their email in Capstone accounts as permanent records. 
The agency should then schedule the remaining email accounts in 
the agency or organizational unit which are not captured as 
permanent as temporary and preserve all of them for a set 
period of time based on the agency's needs.
    The Capstone approach is part of our initial effort in 
providing assistance to agencies to enable them to meet the 
email records requirement in the directive. We will continue to 
provide additional information and guidance as we strive to 
meet all of the directive's mandates.
    Thank you for the opportunity to appear today. Mr. Wester 
and I look forward to answering your questions about Federal 
records.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Ferriero follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Issa. Mr. Wester, I understand you don't have a 
formal opening statement. But in order to set the tone for the 
committee, if you would briefly tell the committee about what 
your relationship is with CIOs, how you are working with them, 
how you are working to hit the deadlines of Capstone on behalf 
of the Archivist, and of course the nature of how you receive 
documents, to the best of your knowledge, from Treasury and the 
IRS today, including the documents such as the ones we are 
discussing. If you could set the stage, I think that's a good 
non partisan way to begin.

                    STATEMENT OF PAUL WESTER

    Mr. Wester. Okay. Thank you. I work with 100 staff members 
here in the Washington, D.C., area and around the country to 
provide records management assistance to all Federal agencies 
across the government, of which there are about 250 active 
agencies that we work with. The staff that works on records 
management policy activities at the National Archives works 
with the CIO Council, the Records Management Council, and other 
councils across the government to identify different ways that 
we need to approach this records management, electronic records 
management challenge. What we have been doing since the 
implementation of the directive back in August of 2013 is 
working with all of the different agencies across the 
government to figure out how we can meet the two deadlines that 
David outlined, which is by the end of the decade ensuring all 
agencies are managing their permanently valuable records in 
automated ways and also making sure that email records are 
being managed in automated ways with temporary and permanent 
emails by the end of 2016.
    So there has been a number of different activities which I 
can answer questions about as we go. But we work very closely 
with agency records officers across the government, including 
at Treasury and the Internal Revenue Service, so that they 
understand where we are trying to go with electronic records 
management as a government and understand what their 
obligations are with the Federal Records Act and the directive 
itself and how we try to bring those two things together to 
make effective records management work across the government.
    Chairman Issa. Thank you.
    I will now recognize myself for a series of questions.
    Mr. Ferriero, last night we finished late, so I wasn't able 
to get to Best Buy. But 2 days before, I needed to acquire a 
storage device, so I spent about $150 and bought a 3 terabyte 
hard drive for about $149 plus sales tax. The IRS Commissioner 
last night told us that it would cost about $10 million if he 
was going to maintain the kind of data that we were interested 
in. The 80 or so depositories, as I understand, would have been 
a fraction of 3 terabytes, a fraction of $149 if they were 
simply moving them to a single NAS and then backing that up.
    So I guess, Mr. Wester, it may be more your bailiwick, but 
is it true realistically that a few hundred dollar drive and 
then a duplicate of that drive realistically would be able to 
hold all of the data that those 80 depositories typically set 
aside as important permanent documents?
    Mr. Wester. Chairman Issa, I think you identify one part of 
the larger records management challenge that we have to deal 
with, which is being able to store and preserve email and other 
electronic records. And as you identified, the costs of doing 
this are coming down tremendously. And that is not a huge 
factor within the issue that we are talking about.
    The issue that agencies are confronting is that they need 
to be able to organize that data and be able to provide access 
to it, which is separate from the storage piece. And that is 
where there are additional costs that agencies need to incur to 
be able to do that.
    Having said that, a lot of agencies, to be able to be 
responsive to FOIA requests, be responsible to committees like 
this one, to be responsible for other kinds of requests and 
business needs that they have, have to develop search 
capabilities to be able to access those materials that are on 
those drives. And so that is where some of the complexity and 
the costs start to add up. So as agencies are doing that kind 
of procurement anyway to be able to support their business 
needs, we believe that a purchase like the Capstone email 
approach allow agencies to be able to do that effectively.
    Chairman Issa. Thank you.
    Mr. Ferriero, there is a document being put up on the 
board, dated October 6, 2010, in which Lois Lerner sent about 
1.1 million documents, including personally identifiable 6103 
information, to Department of Justice in order to aid potential 
prosecution. Have you viewed that email?
    Mr. Ferriero. Yes, I have.
    Chairman Issa. Would you say that that is a record under 
the Federal Records Act?
    Mr. Ferriero. Not having access to the records schedule 
that was created by which this was--this message was created, 
it is an email that is record. Whether it's a temporary record 
or a permanent record I can't tell.
    Chairman Issa. But when the Commissioner said that in fact 
he didn't know if the lost emails, of which this is one, 
included items covered under the Federal Records Act, he was 
mistaken. Is that correct?
    Mr. Ferriero. All I can say is that if it was created, from 
what I read, it is a record. What I can't tell is whether it's 
a temporary record or a permanent record.
    Chairman Issa. Okay.
    Lastly, this committee has jurisdiction over FOIA. Is it 
reasonable to destroy, after 6 months, data routinely so that a 
FOIA request simply goes to data that isn't there any longer? 
If you want to know what was said or done, if it doesn't happen 
to have been maintained by choice, it is gone at the end of 6 
months at the IRS.
    Mr. Ferriero. That's right.
    Chairman Issa. So FOIA requests essentially to the IRS are 
pretty useless. And we now know at the FTC, for example, it's 
45 days. Is that, in fact, in the best interests of freedom of 
information, in your opinion?
    Mr. Ferriero. There, again, if it was a permanent record 
then it is not best practice.
    Chairman Issa. Ms. O'Connor, you declined to come here 
voluntarily so we subpoenaed you. Clearly, you are not pleased 
to be here, but it is important that you are here. You were at 
the IRS and hired when we began our investigation and requested 
selected documents of Lois Lerner in May of 2013. Is that 
correct?
    Mr. Connolly. I started on May 30th.
    Chairman Issa. Okay. So they hired you as soon as we said 
we want a bunch of documents. Correct?
    Ms. O'Connor. Mr. Werfel, who was the acting Commissioner.
    Chairman Issa. Yes or no, please. You are a hostile 
witness. Yes or no, were you hired?
    Ms. O'Connor. I am not at all a hostile witness.
    Chairman Issa. Yes, you are. So you were hired in May. In 
June, when we were not getting delivery, we went and 
subpoenaed. In August, you were at the IRS. Is that correct?
    Ms. O'Connor. I was there in August.
    Chairman Issa. In August of 2013, we requested all Lois 
Lerner emails and not any selection, not any limited group. Are 
you aware of that?
    Ms. O'Connor. Yes.
    Chairman Issa. And what did you do to determine the 
envelope or the window of ``all'' at that time, in August of 
2013?
    Ms. O'Connor. So can I explain the process a little bit? I 
think it would help to----
    Chairman Issa. My time has technically expired, so I would 
just ask that you be full and complete in--wait a second. Okay. 
Just full and complete in what you did from August until the 
time you left to secure all the documents, please.
    Ms. O'Connor. So I think a little background is helpful. 
When I arrived on May 30th, the IRS had a team that was already 
in place collecting materials and beginning to respond to the 
congressional investigations. I joined, at Mr. Werfel's 
request, to be his counselor and perform a number of different 
things, a piece of which was helping to respond to the four 
different congressional committees and the IG and others who 
were seeking materials. And so I played a role that was a 
liaison to him. His direction was to be cooperative and try and 
gather and produce the materials as quickly as possible, and 
also to be a liaison to your staff and the staff of the other 
committees who were interested in figuring out how they could 
get their priorities to them as quickly as they could. And by 
that, what I mean is identifying the employees whose materials 
they wanted to see first and using search terms in order to 
identify the documents at interest.
    The reason search terms were necessary as opposed to just 
turning every everything over wholesale, among others, is I 
know you know there is a statute called Internal Revenue Code 
6103, which is an important--it's a criminal statute passed by 
the Congress that requires the IRS to protect taxpayer 
information. And the way in which they do that in situations 
like this is they have to read every single document to see if 
there is taxpayer information in it and then redact it if 
necessary before producing it.
    So a big piece of the effort was to figure out how we could 
move information as quickly to the congressional committees and 
move them what they were looking for. So, in May, what that 
amounts to is when I arrived, Ms. Lerner's material had already 
been collected, as had some other employees' materials. There 
was more collection that went on after that. And the process, 
as they explained it to me--and I am not a tech expert--but the 
IRS' material is protected with careful encryption. And, so, it 
needs to be processed before it can be reviewed. So, they have 
to load it and then flatten it and then decrypt it. And the 
decryption, I was told, creates errors sometimes. Then they 
have to do it again. And in that piece of the process, which is 
the first piece of the process, they would run the terms that 
the congressional committee staff had identified over the 
material. And then, once that was done and the material was 
viewable, they would move it over into a review tool.
    And when I first got there, one of the things that I was 
doing was talking about how in order to move the volume 
quickly, we would need to add people because the IRS had never 
encountered something like this, didn't have staff in place to 
do this kind of a document review and production. In addition, 
the technical infrastructure wasn't really there to support it. 
So we had a lot of issues that we had to deal with in terms of 
adding servers and adding capacity and having technical experts 
deal with the systems that it would be stable.
    When we got to August, which is I think where your question 
was, you did express an interest in all of the emails. We were, 
at that point, already sort of well into a process that had 
begun in May with Ms. Lerner and other--everybody else's emails 
that had been loaded at that point had been loaded with all of 
the terms. And so they were being reviewed. And so the staff 
who were working on this day to day continued to review all of 
that material. It was Mr. Werfel's intention that as soon as we 
got all of that done, we would circle back and make sure the 
subpoena was complied with.
    And I left in November. We were still in the process of the 
rolling production. It wasn't finished yet. But it was 
certainly my understanding, and I believe it to be true--I have 
no reason to think it's not true--that they intended to 
continue to produce information. But the difference between the 
selected Lois Lerner information and all of Lois Lerner's 
information comes from the fact that, initially, the process 
was organized around material that was--had search terms 
applied to it versus the material at the end.
    I hope that sort of lays that out clearly.
    Chairman Issa. I just want to summarize and go to the 
ranking member. So, in August of 2013, your testimony is that 
when receiving a subpoena and explicit instructions that this 
was our highest priority, that we wanted all the emails of the 
person who took the Fifth in front of this committee and who, 
in fact, was not cooperating, and who indications were was at 
the center of this targeting of conservatives, the decision was 
made to get to it after you got done with all the others. So 
when you left the agency, they had not yet done the extensive 
search--they had not yet looked for all of her emails, and as a 
result, that's why we go until April of this year before we 
discover that all her emails were never to be found.
    Ms. O'Connor. So, I wasn't there when the discovery of the 
lost emails occurred, so I can't really speak to that from my 
personal knowledge.
    Chairman Issa. That's why I was saying that on the day you 
left, they had not set out to discover all her emails, but, in 
fact, had not complied with the subpoena in the sense that they 
had not gathered all of her emails, that they were waiting 
until they got done with all these other things they wanted to 
do, and then they would go look for all of the emails.
    Ms. O'Connor. I am sorry, that wasn't what I meant.
    Chairman Issa. I would like to know what you meant, because 
obviously, they didn't know they were missing in the months 
that you were there after a subpoena asked for all of them. And 
I appreciate that you told us in great detail, and I appreciate 
that, it helps us all understand, you told us in great detail 
about the process that you went through. But of course, the 
process you went through was a process that you determined that 
you wanted to go through. We issued a subpoena. And 6103 
redaction doesn't take the place of your gathering all of that. 
TIGTA was entitled to receive all of her emails without 
redaction and so was Ways and Means, if they chose to receive 
it.
    Ms. O'Connor. Right. I believe that they--I understood--it 
was gathered before I got there. But my understanding from the 
team, and I didn't interact with them directly, but my 
understanding from the team who did gather it was they gathered 
everything that was there. And so in the, you know, process 
from the point at which I got there to the point at which I 
left, the team, who was working very hard on being able to get 
you materials, was reviewing and processing and redacting as 
necessary all the material that had been loaded and to which 
the search terms that your staff and the staff of the other 
committees had identified. The process--I wasn't there when the 
process of going back to look at the ones that had originally 
been loaded but hadn't hit the search terms were reviewed. But 
when I left, my understanding was that that was something that 
was going to continue because the agency seemed fully intending 
to continue to comply with your subpoena. And I have no reason 
to think that it didn't.
    Chairman Issa. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Ms. O'Connor, let me ask you this. You were at IRS for 
about 6 or 7 months from May to November of last year. Is that 
right?
    Ms. O'Connor. Six months. From May 30 to November 30, sir.
    Mr. Cummings. And you said--I was wondering when you came 
in, what instructions were you given with regard to production 
of documents? In other words, what did Mr. Werfel tell you were 
his priorities and what were you instructed to do? I am just 
curious.
    Ms. O'Connor. His strong imperative was that we gather and 
produce everything that the congressional investigators and the 
inspector general wanted. And he wanted it to be done as 
quickly as possible. He was interested in being completely 
transparent. And the directives he gave to me, one of my roles 
was to sort of be his liaison to the team that was working full 
time on the document production. And in that capacity, one of 
the things I tried to do and worked on doing was to help them 
to get stuff out faster, to review faster so that more volumes 
of the material that the committee was looking for--and it is 
four committees, actually, there are four different committees, 
four different investigations. But he wanted to be able to get 
all of it to the investigation staff and committee members, in 
part because the IRS had been asked by the inspector general 
not to conduct its own investigation, not to interview 
witnesses. So the investigative activity was happening in the 
congressional committees and at the IG. And so it was important 
to get them all that material. That's what he told me to do. 
And that's what I worked with the team on doing.
    Mr. Cummings. And is that what you tried to do?
    Ms. O'Connor. That's very much what I tried to do.
    Mr. Cummings. And so you left in November. Is that right?
    Ms. O'Connor. Yes.
    Mr. Cummings. Of 2013. So you were not there this past 
February when the IRS first identified potential issues with 
Lois Lerner's emails. Is that right?
    Ms. O'Connor. That's correct.
    Mr. Cummings. You said something that was very interesting. 
You said, when you got there, Ms. Lerner's information had 
already been collected. Is that you what you said?
    Ms. O'Connor. Yes, that's correct.
    Mr. Cummings. What does that mean?
    Ms. O'Connor. Well, to my understanding--and I didn't 
directly interface with the staff who did this--but 
professional long-term IRS staff went to Ms. Lerner's computer, 
took the hard drive and imaged it, took the emails that were on 
it, made copies of all of that. My understanding is that a set 
of staff--and again, it happened before I got there, so this is 
my, you know, understanding--also went through her office to 
collect any paper copies that were--I think they collected 
probably everything and then went through it to find out what 
was responsive.
    Mr. Cummings. So they actually went through her office, to 
your knowledge, to try to find paper copies, in addition to 
everything else?
    Ms. O'Connor. To my knowledge, yes. Again, I want to 
clarify that I didn't witness it. I wasn't there. But that's 
what I was told.
    Mr. Cummings. I understand. I see. And so let me ask you, 
did you feel that you were able to carry out the instructions 
of Mr. Werfel? In other words, you said he told you to do 
things quickly. He told you to be transparent. And he told you 
to--that's what you told us. Did you do that?
    Ms. O'Connor. We did our best. I mean, there were hurdles 
with the technology. And we had to add resources. We had to add 
staff. We had to add technological resources. And so I think, 
you know, nobody thought it was as quick as they would have 
liked. But we worked very hard to get the material to the 
committees as quickly as we could.
    Mr. Cummings. Now, you were not there in April when the 
Commissioner learned that some of Ms. Lerner's emails might not 
be recoverable. Is that right?
    Ms. O'Connor. I was not there in April, no.
    Mr. Cummings. You weren't even working at the IRS when Mr. 
Koskinen was Commissioner. Is that right? Were you there at any 
time that he was there?
    Ms. O'Connor. No, we didn't overlap.
    Mr. Cummings. So you never worked for him.
    Ms. O'Connor. No.
    Mr. Cummings. And how long have you worked at the White 
House?
    Ms. O'Connor. About a month. I just got there.
    Mr. Cummings. You just got the job?
    Ms. O'Connor. Yes.
    Mr. Cummings. So, Ms. O'Connor, Congress received a letter 
from the White House last week, on June 18th, and it explains 
how the White House found out about Ms. Lerner's emails. It 
says, ``In April of this year, Treasury's Office of General 
Counsel informed the White House Counsel's office that it 
appeared Ms. Lerner's custodial email account contained very 
few emails prior to April 2011 and that the IRS was 
investigating the issue and, if necessary, would explore 
alternate means to locate additional emails.'' So the Treasury 
told the White House in April, which would have been a month 
before you started at the White House. Is that right?
    Ms. O'Connor. That's what that letter says. I wasn't there, 
so I don't know.
    Mr. Cummings. Now, Ms. O'Connor, I want to thank you very 
much for being here today. I know this is difficult. But are 
you a lawyer?
    Ms. O'Connor. I am.
    Mr. Cummings. Do you know what a hostile witness is?
    Ms. O'Connor. I do.
    Mr. Cummings. You do. And the chairman told you that you 
were a hostile witness, and you said you were not. Is that 
right?
    Ms. O'Connor. That's correct.
    Mr. Cummings. Do you consider yourself a hostile witness?
    Ms. O'Connor. I am definitely not hostile.
    Mr. Cummings. So you got a subpoena last night, a 
unilateral subpoena. No committee vote, no debate at all, 
nothing. And then you had to turn around and testify here this 
morning.
    And so I want to state for the record that we have seen no 
evidence that Ms. O'Connor did anything inappropriate 
whatsoever.
    And we want to thank you for your service and for your 
testimony.
    Mr. Ferriero, let me turn to you. The challenges at IRS are 
not unique. Many Federal agencies have had problems retaining 
electronic records. I know the President has made some 
improvement with his memorandum in 2011 and that you and the 
Office of Management and Budget have set target dates for 
agencies to improve their electronic data systems. But we can 
always do better, can't we?
    Mr. Ferriero. We sure can.
    Mr. Cummings. As you know, I introduced the Electronic 
Message Preservation Act a year and a half ago. This bill would 
amend the Federal Records Act to require you to establish 
minimum standards for Federal agencies to manage and preserve 
email records electronically. The bill would complement your 
efforts to get agencies to modernize their recordkeeping 
systems. This bill passed our committee with bipartisan 
support, I am very pleased to say. You have testified several 
times in support of the legislation. Do you think the 
legislation could help improve the quality of the Federal email 
preservation?
    Mr. Ferriero. I certainly do. And, in fact, the directive 
relied heavily upon the language of EMPA as we were crafting 
the directive.
    Mr. Cummings. You know, I sat here last night, I think we 
were here until 10:10, and I listened to, you know, the 
testimony, and this goes to you, Mr. Wester, and I am trying to 
figure out how do we--it seems as if when--it seems like our 
system at IRS, and probably other agencies-- is we are so far 
behind the electronic--I mean, the IT modern world. How do we 
get a hold of that and move forward? Because it sounds like 
that was part of the problem here. Mr. Ferriero?
    Mr. Ferriero. And that's what we addressed in the 
directive. I agree with you we have a lot of work to do in the 
Federal Government, working with our CIO partners.
    Mr. Cummings. Is it too big to solve?
    Mr. Ferriero. No, it's not. It's not too big. We have 
created something within the National Archives, this Capstone 
project, which is one solution that takes advantage of existing 
technologies. The biggest problem over time, and this is in the 
paper environment as well as in the electronic environment, is 
whenever you have a human being in the middle of it making 
decisions, then you have problems. And our focus has been on 
getting the human being out of the process and relying on 
technology to capture the information that we need to capture.
    Mr. Cummings. My last question. What can we do? You know, I 
can see us sitting here--I probably won't be here--but in 5 
years, 10 years from now, sitting here going through the same 
situation. What can we do as Members of Congress during our 
watch to help address this issue? I mean, you said people. 
Well, we got to have people. So we can't let everybody go. So 
what do we do?
    Mr. Ferriero. Well, we have the directive, and we are 
moving ahead, so we have the support of the administration for 
this, and we have the EMPA bill. If you could convince your 
colleagues to get the EMPA bill passed and get it through the 
Senate, that would also help us, because that would legislate 
the change in the Federal Records Act that we need. The Federal 
Records Act today says ``print and save.'' This is 2014, and we 
are printing and saving? This is embarrassing.
    Mr. Cummings. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you. I just want to make sure I make 
the record clear on something the ranking member said.
    I checked with Congressman Gowdy, who has a lot more 
knowledge of law as a prosecutor than I do. And he said the 
term I should have used was noncooperative witness rather than 
hostile, since you and the White House refused to provide your 
services here on an ordinary request, and we had to subpoena 
unilaterally based on the denial that you would appear 
otherwise. So I want to make sure that I don't use a word that 
perhaps does make people think something that isn't true. This 
is simply a witness that refused to cooperate without a 
subpoena.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    And just for the record, I heard the ranking member start 
with the comments that we were hauling people up here 
unnecessarily. That was his phrase.
    And I would take great difference with that comment. First 
of all, last night, we brought Mr. Koskinen back, the 
Commissioner. And we brought him back, and I went through his 
testimony when he came to us in March. And he never mentioned 
any problem with the emails back in March, Lois Lerner's 
emails. The chairman showed everyone on the committee, both 
sides of the aisle, asking for Lois Lerner's emails. He came 
and said to us that last week--this is his testimony in March--
last week, we informed this committee and others that we 
believe we completed production of all of the requests under 
the inspector general's report of May 2013.
    And he in fact testified last night in his written 
testimony that he had been aware of technical problems back in 
February. So I think we had every right to call him back.
    The other side, when it intimates that this is some kind of 
Republican stirring things up, my goodness, last week, the 
entire country and the Congress was stunned to find out that 27 
months of Lois Lerner's emails had supposedly been destroyed or 
her computer crashed. So I think we have every right.
    Mr. Archivist, the law says that--the Federal records law 
requires that the National Archives be noticed when documents 
are destroyed or lost. Is that the law, sir?
    Mr. Ferriero. That is the law.
    Mr. Mica. Okay.
    And, Ms. O'Connor, you were brought on board after this 
report. This is not a Republican report. This report was 
prepared by the Treasury Inspector General for Tax 
Administration to see if groups were targeted. And it confirmed 
that. You are aware of this report, Ms. O'Connor?
    Ms. O'Connor. I have read the report, yes.
    Mr. Mica. And you were brought on to what, to compile the 
records from and all the information pertaining to what was in 
that report or----
    Ms. O'Connor. I was brought on to give advice to Acting 
Commissioner Werfel on a number of things.
    Mr. Mica. But we had requested in May certain documents. 
When you came on in early June the IRS sent documentation 
retention notices to employees who were identified as having 
documents, including relevant email, potentially relevant 
information to investigators. You were part of that request and 
notice to employees in early June. You were there in early 
June?
    Ms. O'Connor. I was there in early June, but my 
understanding is that a subset of employees had already----
    Mr. Mica. Well, this had been sent out, but you're aware 
that that request had been made to employees to preserve and 
present documents?
    Ms. O'Connor. Absolutely it's important----
    Mr. Mica. Yes. And that was your job.
    Ms. O'Connor. Yes.
    Mr. Mica. So it's appropriate that you're both here today.
    When did you first learn that there were emails missing?
    Ms. O'Connor. I learned that Ms. Lerner's emails were 
missing as the result of a computer crash the week before last.
    Mr. Mica. So you were in charge from May until November of 
compiling information from Congress and you never heard before 
that that there was any missing documentation as far emails?
    Ms. O'Connor. I didn't hear that any of Ms. Lerner's emails 
were missing, no.
    Mr. Mica. Now, when you were compiling this information for 
the four committees of Congress and working with Mr. Werfel, 
who did you report to?
    Ms. O'Connor. Mr. Werfel.
    Mr. Mica. Okay. And were you aware that he was reporting 
your activity and what was being found? You were in charge of 
compiling the information, reporting to Mr. Werfel, right? Did 
you interact at all with anyone at the White House?
    Ms. O'Connor. Not when I was there.
    Mr. Mica. Between May and November when you were there, if 
I get your emails, your schedule, like Shulman or the--who is 
the----
    Ms. O'Connor. I cannot recall ever having any conversation 
with----
    Mr. Mica. Shulman was there before that. He came and 
testified to us that the only time he went to the White House 
was for egg rolling. And then we subpoenaed the White House 
records, find he went there 113 times, or something like that. 
But you had no contact with the White House during that period?
    Ms. O'Connor. Actually you're jogging my memory, and I 
actually want to use that as a footnote to just say that I'm 
doing this completely by the fly off my memory because of the 
subpoena coming last night.
    Mr. Mica. Was there some contact? Because now you----
    Ms. O'Connor. Yes. I'm going to tell you what it is.
    Mr. Mica. Yeah. And now you wind up in the White House. You 
had a subsequent job, I guess helping with the Obamacare 
situation.
    Ms. O'Connor. Could I answer that question?
    Mr. Mica. Yes, go right ahead.
    Ms. O'Connor. I feel like it's something important to 
finish the sentence. Mr. Werfel went to the White House in I 
think late June with Secretary Lew in order to give the 
President his report, and I went into the White House with him. 
I wasn't in their meeting.
    Mr. Mica. Was this matter discussed at all?
    Ms. O'Connor. I wasn't in the meeting. I just accompanied--
--
    Mr. Mica. You weren't.
    Ms. O'Connor. --him to the building.
    Mr. Mica. Okay. So we would find that record. No other 
contact in the White House during that period?
    Ms. O'Connor. No.
    Mr. Mica. But you're aware--would you be aware that your 
activities were being reported to Mr. Werfel? And usually they 
have the counsel or someone, it might have been Treasury, 
reporting to the White House as to what was going on, say, with 
this report. You're not aware of what took place there?
    Ms. O'Connor. So in terms of the IG report, I have no idea 
what, if anything, was reported to the White House. The visit 
that I had with Mr. Werfel was to give his 30-day report to the 
President.
    Mr. Mica. No, but again, your activity was reported to 
Werfel, where you were in the investigation and compiling for 
Congress, you weren't aware of it being transmitted beyond him?
    Ms. O'Connor. No.
    Mr. Mica. Okay. Thank you.
    Chairman Issa. Thank you.
    We now go to the gentlelady from New York, Mrs. Maloney.
    Mrs. Maloney. Thank you. I regret I was not able to join 
you last night for the hearing. We had a Financial Services 
Committee--or rather a bill on the floor that I had been 
working on and we were in debate on the floor. But I just 
wanted to make a brief statement about the hearing that we had 
last night on the overall IRS. And this whole IRS mess seems to 
flow directly from confusion over just how the IRS should 
enforce a law that was passed by this Congress that gives tax-
exempt status to not-for-profits, but only if they are 
essentially politically nonpartisan. And what the IRS was 
looking at is whether these activities of these not-for-profits 
really merited being tax exempt because they're getting 100 
percent deduction and putting a great deal of money into 
political campaigns.
    Now, we don't have----
    Chairman Issa. Would the gentlelady yield?
    Mrs. Maloney. Okay.
    Chairman Issa. You probably were not here when this was 
discussed, but 501(c)(4)s do not get 100 percent deduction. You 
are not tax deductible on your donations of 501(c)(4)s.
    Mrs. Maloney. At all?
    Chairman Issa. Not at all, not a penny.
    Mrs. Maloney. Not a penny.
    Chairman Issa. They are tax exempt in that the money they 
receive from taxpayers who have paid their taxes and then give 
them their after-tax income, they don't count it as profit. 
They simply spend it on their behalf. But they are not tax 
deductible the way a charity is, and it's a very significant 
difference. It is one of the reasons that they can do up to 
half of their activities in these. These are social welfare 
groups, not charities.
    Mrs. Maloney. They are social welfare groups and they don't 
get a tax deduction?
    Chairman Issa. When you give to a 501(c)(4), you do so 
without a tax deduction. It is taxable, and then you give your 
after-tax. It's exactly the same kind of tax deduction you get 
when you receive a political campaign. Your donors pay their 
taxes and then give you after-tax income. It is not a charity.
    Mrs. Maloney. Not at all?
    Chairman Issa. Not at all.
    Mrs. Maloney. Well, I stand corrected. I thought 501(c)(4)s 
had a tax treatment that was favorable to them, and I was 
saying why not just have a rule that no one gets a tax 
deduction that gets involved in political activities.
    But I think, getting back to the emails, when 22 million 
emails from the Bush White House went missing in 2003 and 2005, 
which was only discovered under the Valerie Plame affair, our 
colleagues across the aisle had a different take on how things 
should happen. And were there any provisions put in place after 
this loss of emails between 2003 and 2005 that made it less 
likely that emails could go missing again? I ask anyone who 
would like to answer that.
    There was a terrible debacle in 2003 and 2005. What changes 
were put in place to prevent this from happening again?
    Mr. Wester. So I would suggest that that's an example of 
some of the challenges that all Federal agencies across the 
government have as it relates to managing email. And the 
instance that we're talking about today with the IRS is also 
another where agencies need to be able to understand how their 
email systems work, how their email systems work in connection 
with the Federal Records Act, and how they're ensuring that 
preservation is occurring according to disposition schedules. 
So that's been a wakeup call for the entire Federal Government.
    Mrs. Maloney. Well, I would also say that a wakeup call is 
that you need your infrastructure to be high tech and in place.
    And, Mr. Ferriero, as you may be aware, the IRS has a 1 
billion IT infrastructure, but the Federal Times recently 
reported that sequestration and other cuts have imposed 
terrible restrictions on the IRS, including a reduction in the 
agency's supplies and materials and budgets. And so you 
basically have an antiquated IT system, in addition to not 
putting reforms in place, so can you discuss how maintaining an 
antiquated IT system might impact an agency's record-retention 
capability? What does this mean, these budget cuts and not 
having an updated IT system?
    Mr. Ferriero. It certainly plays a role in this particular 
case in terms of the capacity of their hard drives to retain 
information, the number of emails that they're actually able to 
capture at one time.
    The upside of the directive that we're in the process of 
implementing is that it gives us the authority to work with the 
industry, the electronic mail industry, the high-tech industry 
to create solutions that will work for the Federal Government, 
efficient, effective, and cost-benefit solutions to this 
problem. So I'm optimistic about the future.
    Mrs. Maloney. Well, has funding been a significant 
challenge to some of these agencies in modernizing their IT 
records and retention infrastructure?
    Mr. Ferriero. It certainly has.
    Mrs. Maloney. The Commissioner testified, and I read his 
testimony, he has proposed $400 million to $500 million of 
modernization and improvement activities, but this has not 
become a reality in the budget. Others have complained that the 
department still has not completed the switch from Microsoft 
Windows XP to Windows 7. What kind of problem is that? Can you 
elaborate a little further?
    Mr. Ferriero. This is a problem across the government in 
terms of the investment in technology.
    Mr. Connolly. Would my colleague yield?
    Mrs. Maloney. Absolutely.
    Mr. Connolly. At last night's hearing, it was established 
that the IRS has had over $800 million worth of cuts in its 
budget in the last 4 years, and it's slated for an additional 
$350 million this year. You can't have it both ways. You can't 
be cutting the IRS that kind of amount and then decry the fact 
that they've got antiquated IT systems.
    I thank my colleague for yielding.
    Mrs. Maloney. My time has expired. Thank you.
    Chairman Issa. I thank the gentlelady. And I thank the 
gentleman for pointing out the 10,000 less workers, but not in 
fact a smaller IT budget.
    Mr. Connolly. But I know the chairman shares my concern 
about the IT investment.
    Chairman Issa. You know what, I really do, and I wish you 
had stayed longer last night to hear the accolades from both 
sides of the dais for the IG and his independence, his 
nonpartisan, the TIGTA's efforts, and how much he's relied on 
as a nonpartisan. I think it would have been very, very 
insightful.
    Mr. Connolly. You know, Mr. Chairman, I appreciate that. My 
wife is ill, and I have had to go home at night to----
    Chairman Issa. Well, you certainly have our sympathies.
    Mr. Connolly. I know that he would appreciate that.
    Chairman Issa. Thank you.
    The gentleman from Ohio, Mr. Jordan, is recognized.
    Mr. Jordan. I thank the chairman.
    Ms. O'Connor, in the 6 months you were at the Internal 
Revenue Service who was the person in charge of getting the 
documents that Congress wanted to--this committee and to the 
Ways and Means Committee?
    Ms. O'Connor. I guess I would say that that's Mr. Werfel, 
because he directed the agency at the time and told us what his 
directives were to----
    Mr. Jordan. But in the people who were working on document 
production, who was in charge?
    Ms. O'Connor. So I served, as I think I was describing, as 
sort of the liaison between him and the team, the big team of 
people----
    Mr. Jordan. So it was you? Was it you? Were you the person 
in charge?
    Ms. O'Connor. I wasn't working on it full-time because I 
had a number of other responsibilities.
    Mr. Jordan. Well, when we interviewed Mr. Wilkins, who is 
the Chief Counsel at the IRS, he said it was you. He said 
employees who have been responsible for collecting and 
producing documents, we asked him who was responsible for that 
process, and he said it is Tom Kane and Jennifer, are the two I 
identify as the key supervisors. And then he said, Ms. 
O'Connor? And he said yes. So he identified you as the chief 
person.
    So in the 6 months you were there, this is a huge story, 
you got the key player in this who took the Fifth, it's in the 
news every day, and in that time, you're telling us, you did 
not have any inclination that a bunch of Lois Lerner's emails 
were lost.
    Ms. O'Connor. I did not know that her emails were missing 
and unrecoverable and that there had been a laptop crash that 
had caused that.
    Mr. Jordan. Okay. So when you did learn, what was the date 
that the White House Counsel's office learned--Mr. Koskinen 
told us last night he thought he had no duty to disclose, that 
he knew in February that there was a problem, he knew in March 
that there were lost emails, he didn't tell us at the end of 
March, but he did--well, someone at the White House learned in 
April. We didn't learn until June when they sent us a letter 
just a week and a half ago. So when did the White House 
Counsel's office learn that there were lost emails?
    Ms. O'Connor. So I just got there.
    Mr. Jordan. I understand, but I'm asking when the Counsel. 
How big--there's only, like, 25 lawyers in the whole----
    Ms. O'Connor. I wasn't there in April. I have seen the same 
letter that you've seen, and it, you know, describes there----
    Mr. Jordan. But Do you know the date?
    Ms. O'Connor. I don't.
    Mr. Jordan. Is it fair to say April? I mean, that's what 
your boss Mr. Eggleston said, he said it was in sometime in 
April when they learned from the Treasury. Is that accurate?
    Ms. O'Connor. I have no reason to doubt that it's true. I 
just wasn't there.
    Mr. Jordan. Okay. And then do you know who from Treasury 
told the White House Counsel's office that emails were lost, do 
you know who that person was?
    Ms. O'Connor. I don't know.
    Mr. Jordan. You don't know who was in that meeting or if it 
was a meeting or if it was a phone call, how it was 
communicated?
    Ms. O'Connor. I'd love to be helpful. I just started, so 
I'm unable to answer your question. I just wasn't there yet.
    Mr. Jordan. And do you know if anyone in the White House 
Counsel, once they got that information, did they tell anybody 
else? Did your boss, did the White House Counsel's office, did 
they tell the Chief of Staff at the White House, did they tell 
the President? Who was that communicated to?
    Ms. O'Connor. Again, I'm sorry, I don't mean to be a broken 
record, but I wasn't there.
    Mr. Jordan. You didn't talk? I mean, we asked you to come 
to this hearing a week ago, so in the week you didn't ask, 
like, what happened here? We learned in April, the Congress 
didn't learn until June, you didn't ask any of your colleagues 
in that. How many lawyers are in the White House Counsel's 
office? Approximately 25?
    Ms. O'Connor. I'm sufficiently new that I have not done a 
head count. I honestly don't know.
    Mr. Jordan. Well, our understanding it's around 25 lawyers. 
You'd think maybe you would talk to those folks and get the 
details about what you're going to come to this committee and 
have to answer questions about. You didn't do that?
    Ms. O'Connor. So, the letter that I received from Chairman 
Issa said that the reason that you wanted to talk to me was to 
understand what I learned at my time at the IRS. I obviously 
did not have much time to prepare, but I prepared to come and 
tell you about that.
    Mr. Jordan. But you didn't even think to ask about the fact 
that the White House knew in April and the people's house 
doesn't know until June, you didn't think there was a duty to 
figure out, you know, who gave you the information, who you may 
have shared that information with? I mean, it seems like 
everyone knows this stuff except the Congress, and we don't get 
it for months later.
    Ms. O'Connor. So again, what I'd like to be able to do is 
be as helpful as I can with what I knew when I was at the IRS.
    Mr. Jordan. Well, it would have been helpful if you'd have 
had those answers to those questions. Do you know if the White 
House Counsel's office, once they got this information that, in 
fact, Lois Lerner's emails in a critical 2-year timeframe were 
lost, do you know if the White House Counsel's office told the 
FBI and told the Justice Department?
    Ms. O'Connor. So, what I can tell you is what I knew when I 
was at the IRS.
    Mr. Jordan. No, no, I'm talking about now. You work at the 
White House Counsel's office. They knew this information in 
April. We didn't know it till June. There's a 2-month time 
difference there. In that time, did the White House Counsel's 
office tell the FBI? Remember what the President said. He said 
he's angry about this, people have to pay, this is outrageous, 
there's no place. This is all the things he said when this 
scandal broke. So I'm wondering, if you get important 
information like Lois Lerner's emails are lost, did you share 
that with the agency doing the criminal investigation? Did you 
say, hey, this is serious, we better get this information to 
the FBI and to the Justice Department? Did you guys do that?
    Ms. O'Connor. I'm happy to answer questions about my time 
at the IRS. I was there for 6 months.
    Mr. Jordan. I'm asking did your boss, did the folks you 
work for at the White House Counsel's office when they got this 
critical information, did they share it with the Justice 
Department?
    Ms. O'Connor. Mr. Eggleston actually started the same day 
that I did. So our tenures are the same.
    Mr. Jordan. He's the one who wrote the letter to Dave Camp 
saying they learned of it in April from the Treasury's Chief 
Counsel. When he got that important information, did he get it 
to the folks who were running the criminal investigation? 
That's important. Or do you think there's no duty for the White 
House when they got critical information, there's no duty, no 
obligation to share that with the Justice Department who's 
running a criminal investigation? You don't think they have to 
do that? They can just sit on the information?
    Ms. O'Connor. So can I answer the question?
    Chairman Issa. The gentleman's time has expired. You may 
answer.
    Ms. O'Connor. Can I answer the question? I'm happy to work 
with you and with your staff to try to get you information as 
we can to answer your questions about my time at the White 
House.
    Mr. Jordan. Mr. Chairman, if I could, that wasn't the 
question. The question was, do you think the White House 
Counsel's office has a duty to share critical information about 
lost emails with the Justice Department when you knew that 2 
months ago?
    Chairman Issa. Okay. I think the question is now 
understood. Can you answer that question, please?
    Ms. O'Connor. And my answer would be----
    Ms. Speier. And can she not be interrupted?
    Ms. O'Connor. My answer would be that I am here as a 
witness about the facts that I learned at the IRS. To the 
extent you have questions about activity at the White House, 
I'm happy to work with you and see what we can do to get you 
answers. That's not what I'm prepared to talk about today.
    Chairman Issa. Actually, from the chair, I need to advise, 
when a question is asked and you're an attorney and he's asking 
if you have an opinion as to whether or not knowledge of a 
crime should be referred or the knowledge of something you 
think is a crime should be referred, it really is a yes or no 
or I do not feel----
    Ms. O'Connor. I'm happy to answer that.
    Chairman Issa. Please.
    Ms. O'Connor. I think knowledge of a crime should be 
referred to the FBI, yes.
    Chairman Issa. Thank you very much. And I thank you.
    The next is the patient gentlelady from Illinois, Ms. 
Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Ms. O'Connor, has it been determined that the crashed hard 
drive was a crime?
    Ms. O'Connor. Not as far as I know.
    Ms. Duckworth. Thank you. So when the White House--well, 
let's go back. Last night Commissioner Koskinen testified that 
he found out about the crashed hard drive in April of this 
year. Were you working at the White House at that time?
    Ms. O'Connor. I was not.
    Ms. Duckworth. When did you start at the White House?
    Ms. O'Connor. Just about a month ago.
    Ms. Duckworth. About a month ago, so middle of May?
    Ms. O'Connor. Yes.
    Ms. Duckworth. Middle of May. Okay. So would you have any 
information prior to the middle of May or in April, would the 
White House have called you and told you that they received 
information or did not receive information from the IRS before 
you started working there?
    Ms. O'Connor. Nobody called me from the White House to tell 
me they received information from the IRS.
    Ms. Duckworth. Okay. So you would not have known?
    Ms. O'Connor. No.
    Ms. Duckworth. The current Commissioner testified that he 
only learned in April that the crash had happened and that in 
that process they were still trying to recover some of the lost 
emails, and in fact, they had managed to recover some of the 
emails that were lost because, even though they were crashed 
and lost from the ``from'' account, Ms. Lerner's account, they 
were actually found in the 2 accounts of the 82 custodial 
accounts, the people that received the emails, and they were 
sort of going through that process. It's by no means complete, 
but they were going through the process. Again, this happened 
in April. Would you have had any knowledge of that?
    Ms. O'Connor. I didn't have any knowledge of that in April. 
I do think that the measures that they described that they went 
through sounds exhaustive and appropriate.
    Ms. Duckworth. But let's go back to the 5-1/2--5 months you 
worked at the IRS. My colleague indicated that there had been 
previous testimony you were identified as the person in charge 
of employees whose job it was to produce the documents that had 
been requested by the various committees. Did you write the 
evaluations for all of those employees?
    Ms. O'Connor. None of them directly reported to me. My role 
was as an advisor, and I did my best to help them and advise 
them and work with them and work with the committees and 
essentially make sure that the team that was working day to 
day, all day long, you know, to do this, and all night long, I 
mean, they worked very, very long hours, knew what the 
priorities were for which employee's material was going to be 
produced, what the search terms were supposed to be.
    Many of the investigating committees, including this one, 
had, you know, specific requests, please get me the BOLO 
spreadsheets or please get me the training materials or 
whatnot, and I tried to facilitate that and help the team 
figure out how to prioritize what reviewers were looking at 
what materials that they could move quickly, those kinds of 
things. So I played a role, but I didn't write any performance 
evaluations because none of them directly reported to me.
    Ms. Duckworth. Okay. So you played an advisory role, but 
you had no direct responsibilities in terms of evaluation them, 
direct them exactly how they should go about doing the data 
gathering, you simply advised them as they were going through 
the process, and then your job was to report back to Mr. Werfel 
on the progress of the effort. Is that correct?
    Ms. O'Connor. I don't want to leave the impression I didn't 
work closely with them. I did.
    Ms. Duckworth. Okay.
    Ms. O'Connor. It's just that I was not their direct 
supervisor.
    Ms. Duckworth. Okay. Thank you.
    Mr. Ferriero, I'm really interested in the Capstone 
process, and I want to make sure we give that enough of 
attention. One of the things that really astounded me last 
night was when I learned that only records that IRS employees 
determine relevant would be printed out and then those would be 
archived, but it was up to the individual employees to decide 
what would be and what would not be. I'm looking at the 
National Archives and Record Administration Bulletin 2013-02 
titled, ``Guidance on a New Approach to Managing Email 
Records,'' which talks about Capstone.
    And, Mr. Chairman, I would like to have this entered into 
the record also.
    Chairman Issa. Without objection, so ordered.
    Ms. Duckworth. Thank you.
    And in point 8, it actually talks about pre-accessioning 
policy, that talks about how pre-accessioning, if that were to 
be conducted, would mean that you would actually assume 
physical custody of copy of all the records usually well before 
this time to assume legal custody. Can you sort of describe 
that process and then how that would interact with the 
individual employees, whether that takes them out of the 
picture?
    Mr. Wester. I will take that.
    Ms. Duckworth. Oh, okay, I'm sorry. Thank you, Mr. Wester.
    Mr. Wester. So with the pre-accessioning policy, what we 
want do is offer agencies the opportunity to transfer physical 
custody of email records to us so that we can ensure their 
preservation at the National Archives so that they are not in 
any kind of danger or anything in an agency. So this is a way 
to ensure adequate preservation of archival records, those 2 to 
3 percent of records that agencies create that have permanent 
value that would come into the National Archives. We'd bring 
them in through that pre-accessioning policy and maintain them 
physically, and then at the time of transfer, which may be in 
15 or 20 or 30 years after that date of their creation, then 
make available through the National Archives access programs.
    Ms. Duckworth. So once you have it, then those IRS 
employees, for example, whatever agency it is, couldn't 
actually go and delete the copy that you have, correct?
    Mr. Wester. No, they would be entrusted to the National 
Archives itself. They would be in our physical custody, even 
though they would still be in the legal custody of the IRS.
    Ms. Duckworth. But that would be useful.
    My time is up, Mr. Chairman. I yield back.
    Chairman Issa. Thank you.
    I'd ask unanimous consent that the press release from the 
Treasury Inspector General For Tax Administration, TIGTA, dated 
November 21st, 2013, be placed in the record. Without 
objection, so ordered.
    Chairman Issa. It's entitled, ``Increased Oversight is 
Needed of the Internal Revenue Service's Information Technology 
Hardware Maintenance Contract,'' and it goes into the tens of 
millions of dollars that were spent in 2012 fiscal year on 
maintenance that was neither needed nor was it performed.
    We now go to the gentleman from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    Mr. Ferriero, just to review a bit, in your testimony you 
state that when agencies become aware of unauthorized 
destruction of Federal records, that they're required to report 
the incidents to the Archives. At any time in 2011, through 
last Monday, did the IRS report any loss of records related to 
Lois Lerner?
    Mr. Ferriero. No.
    Mr. Walberg. Is it fair to say that the IRS broke the 
Federal Records Act?
    Mr. Ferriero. They're required--any agency is required to 
notify us when they realize they have a problem that could be 
destruction or disposal--unauthorized disposal.
    Mr. Walberg. But they didn't do that.
    Mr. Ferriero. That's right.
    Mr. Walberg. Did they break the law?
    Mr. Ferriero. I'm not a lawyer.
    Mr. Walberg. But you administer the Federal Records Act.
    Mr. Ferriero. I do.
    Mr. Walberg. If they didn't follow it, can we safely assume 
they broke the law?
    Mr. Ferriero. They did not follow the law.
    Chairman Issa. Mr. Walberg, I think you've got a witness 
who's smart enough to know that he knows he would have liked 
those records, he'd like to have gotten those records, he was 
entitled to those records, but he'll let the lawyers argue out 
the law.
    Mr. Walberg. Let the lawyers argue out. The general 
American public who wouldn't get away with that if they were 
before the IRS themselves and said that they didn't report a 
specific page or a specific document, I mean, that's the 
frustration. I hope those that are watching understand we're 
dealing with a law here that was broken, that was broken by an 
agency that has the power to tax, which is also the power to 
destroy.
    Mr. Ferriero, in general, I guess could you briefly 
describe for us the print and file recordkeeping process and 
how it works?
    Mr. Wester. I would like to take that question for you. 
First of all, I need to apologize about intimating that the 
Federal Records Act itself says print and file. So, the Federal 
Records Act, as the Archivist has said, does not stipulate that 
you have to print and file, but it is a practical activity that 
most agencies have adopted as part of their policy so as to 
ensure that Federal records, as defined in the Federal Records 
Act, are identified and put into official recordkeeping systems 
within agencies.
    The connection to the Federal Records Act is that it is 
based on an analog and paper model for managing records, and as 
a practical matter, most agencies, if not all agencies across 
the government have had print and file policies where 
individual employees are required to identify what the Federal 
records are and put them into the recordkeeping copy within 
their agency for retention according to records control 
schedules that the Archivist of the United States approves.
    What we're trying to do with the Capstone policy and the 
activities with the directive on managing government records is 
to automate this process so that we can eliminate the human 
intervention and the likelihood or the possibility of humans 
making errors and us--and agencies losing control of records. 
So print and file has a long history of human intervention, 
whether it's printing it on paper and putting it into a file 
folder or clicking and dragging an electronic file into an 
electronic file folder.
    Mr. Walberg. But the IRS has--they have that policy?
    Mr. Wester. Their official policy, as we understand it, is 
the print and file.
    Mr. Walberg. In general, do you think it would be 
sufficient for the Federal Records Act for an employee to save 
emails that are Federal records to a local folder on their 
computer's hard drive instead of printing those emails out?
    Mr. Wester. It's inconsistent with the guidance that the 
IRS has given to their employees, and their official guidance 
is to print and file email records in this case to paper and 
put them in the official recordkeeping system.
    Mr. Walberg. If an employee were to deliberately not comply 
with the FRA by not printing out their emails, would they be 
subject to any sanctions under the FRA? If so, what sanctions?
    Mr. Wester. I am also not a lawyer, but it's not an 
enforcement statute. What we do with agencies when these sorts 
of issues arise is have them report to us what has occurred in 
the instance where emails or other kinds of records have been 
alienated or destroyed and then what are their plans for 
reconstructing those records or putting things in place to make 
sure that this sort of activity does not happen again in the 
future.
    Mr. Walberg. Let me just complete the questioning here. If 
a Federal employee's hard drive crashes with no warning and no 
backup of the email exists, do you believe it's proper for an 
agency to assume that no records were lost?
    Mr. Wester. No.
    Mr. Walberg. That's the question, the $100 million question 
that, Mr. Chairman, we hope we ultimately can get an answer to. 
I yield back.
    Mr. Gowdy. [Presiding] I thank the gentleman.
    The chair would now recognize the gentleman from Nevada, 
Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman.
    Last night the actual chairman, Chairman Issa, took an 
extreme action by issuing a unilateral subpoena to the White 
House. He demanded that Ms. O'Connor show up here today within 
24 hours and under threat of contempt. There was no vote on 
this subpoena. The committee did not debate it. Members did not 
have the opportunity to weigh the gravity of what the chairman 
did in the committee's name. Now we find out how misguided that 
subpoena really was.
    Ms. O'Connor, let me just confirm what we've heard here 
this morning. You were not at the IRS when employees were using 
inappropriate search terms. Is that correct?
    Ms. O'Connor. I was not at the IRS during the period 
covered by the Inspector General's report.
    Mr. Horsford. You joined the IRS after the Inspector 
General issued his report. Is that correct?
    Ms. O'Connor. Yes, I joined on May 30, 2013.
    Mr. Horsford. And you left the IRS in 2013, which was long 
before the IRS made these recent discoveries this spring about 
Ms. Lerner's email. Is that correct?
    Ms. O'Connor. That's correct, yes.
    Mr. Horsford. And you joined the White House less than a 
month ago.
    Ms. O'Connor. About a month ago.
    Mr. Horsford. And according to a letter we received from 
the White House, that was after the Treasury Department 
informed the White House in April about potential problems with 
Ms. Lerner's email. Is that right?
    Ms. O'Connor. Right. I've seen that letter, and it refers 
to an April referral or informing in April, yes.
    Mr. Horsford. Thank you. I quite honestly do not understand 
how Chairman Issa was able to rush to issue this subpoena, to 
force you, Ms. O'Connor, to be here today within 24-hour 
notice. Your connection to this topic of today's hearing is at 
best a stretch, and all of these questions could have been 
answered by simply picking up the telephone and asking. It's 
just a continuation of the same charade that unfortunately this 
chairman continues to use this committee to perpetuate. And 
what's further insulting about this is that the chairman 
promised to use the authority of this committee responsibly.
    Let me read what the chairman said back in 2011, ``I'm 
going to take the thoughts on why you object seriously. To be 
honest, I will ask other members of my committee, am I doing 
the right thing? I will also undoubtedly talk to other Members 
on your side and say, am I nuts, am I wrong, is this somehow a 
subpoena that is outside the mainstream? So, I don't intend on 
simply writing subpoenas endlessly.'' But that's exactly what 
Chairman Issa has done.
    Since he became chairman 4 years ago he has issued more 
than 50 unilateral subpoenas. He has never once allowed a 
debate, and he has never allowed a vote. Not only do these 
actions contradict the promises that he made 4 years ago as the 
chairman, but they result in unwarranted and abusive subpoenas 
like the one he issued last night.
    Now, many constituents do care about the issue of the 
wrongdoing that occurred at the IRS, and there are Members on 
the other side of the aisle who I have listened to, to try to 
understand the concerns about the lack of accountability of 
those individuals who should be held responsible. But 
unfortunately that is not what the chairman has allowed us to 
focus on in any of the hearings that we've had dealing with 
this matter. In fact, he's used this process to politicize the 
process and to not focus on the proper oversight or government 
reform function of the committee.
    But perhaps this should not be a surprise, because during 
an interview on August 19, 2010, before Chairman Issa became 
committee, he was asked what he planned to do with the ability 
to issue subpoenas, and his response was, ``Cabinet officers, 
assistant secretaries, directors, I will be able to take on 
everybody that the President hires and relies upon.'' Well, he 
has certainly made good on that promise.
    I yield back my time.
    Mr. Gowdy. I thank the gentleman from Nevada.
    The chair would now recognize the gentleman from Arizona, 
Dr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    You know, the ranking member brings up new legislation 
about electronic preservation. Mr. Ferriero, that's pretty much 
immaterial if you don't uphold the rule of law, right.
    Mr. Ferriero. Well, the hope is that you----
    Mr. Gosar. Well, the hope is, but I mean, if you don't 
uphold the rule of law, you can pass all the legislation you 
want to, it doesn't make a hill of beans about it, right?
    Mr. Ferriero. That's true.
    Mr. Gosar. How about you, Ms. O'Connor, would you agree 
with that statement?
    Ms. O'Connor. The importance of upholding the rule of law?
    Mr. Gosar. Yeah.
    Ms. O'Connor. It's very important.
    Mr. Gosar. I want to read, former Supreme Court Justice 
Brandeis made a comment. ``In a government of laws, the 
existence of the government will be imperiled if it fails to 
observe the law scrupulously. If government becomes a 
lawbreaker, it breeds contempt for the law; it invites every 
man to become a law unto himself; it invites anarchy.'' So if 
civil society is important, following the rule of law is very 
important. Would you agree, Ms. O'Connor?
    Ms. O'Connor. Absolutely.
    Mr. Gosar. Yeah.
    Mr. Ferriero, you found out about the potential loss of 
documentation by the IRS or through a letter to Senators Wyden 
and Hatch.
    Mr. Ferriero. Through that letter in June.
    Mr. Gosar. You are aware that Federal Regulation 36 CFR 
Part 1230.14 states that agencies must report promptly any 
unlawful or accidental removal, defacing, alteration, or 
destruction of records in the custody of that agency to the 
National Archives and Records Administration, Modern Records 
Programs, true?
    Mr. Ferriero. True.
    Mr. Gosar. Yeah. That's what I thought. So once again we've 
got a problem. Last night I cited the articles of impeachment 
for President Richard Nixon, actually cited the inference about 
the IRS. People are scared of the IRS because the power to tax 
is the power to destroy. Wouldn't you agree, Mr. Ferriero?
    Mr. Ferriero. I know that people are afraid of the IRS, 
yes.
    Mr. Gosar. Yeah. Missing documents, kind of similar to 
missing tape minutes. Wouldn't you agree, Mr. Ferriero?
    Mr. Ferriero. I'm not sure they equate.
    Mr. Gosar. Whoa, whoa, whoa, whoa, whoa, missing material, 
missing material, missing records, missing records, the same. 
Agreed?
    Mr. Ferriero. Missing material.
    Mr. Gosar. Yeah. And then we haven't followed the rule of 
law. So everybody is scared to death that there's one 
application to bureaucrats and there's another application to 
the regular lay people on the street, you know. It defies me.
    Ms. O'Connor, I mean, you've been in the Clinton White 
House, you used to help with the Clinton administration with 
the Teamster Union strike. In fact, you've been quoted as being 
a veteran of Washington battles. Would you agree with that?
    Ms. O'Connor. I've been here a long time.
    Mr. Gosar. So you know the process, right?
    Ms. O'Connor. I'm not sure which process you're referring 
to.
    Mr. Gosar. The bureaucratic inside-the-Beltway politics 
process. You know about these recordkeeping and aspects of that 
as well.
    Ms. O'Connor. I'm not a recordkeeping expert. Certainly I 
have----
    Mr. Gosar. But you have to--you're an attorney. You have to 
know that when there's a problem and you don't have records, 
where there's a problem with records, you know to report it, 
right?
    Ms. O'Connor. I know that if you discover that records have 
been lost and they're not recoverable, it needs to be reported, 
yes.
    Mr. Gosar. Let's go back through this again. The accidental 
removal, defacing, alteration, or destruction of records in the 
custody. So it's not just loss, it's potential problems with 
it. So in your tenure over at the IRS, there was no inferences, 
Ms. O'Connor, that there was some sequencing problems or some 
problems with the emails out of Ms. Lerner's office, none?
    Ms. O'Connor. Nobody raised to me what I understand to be 
the issue that arose here, which is an identification that some 
of the emails were----
    Mr. Gosar. I didn't ask about missing. That there were some 
problems with her email. Because even the Commissioner said 
that it was known that there was problems with that--with her 
records.
    Ms. O'Connor. I don't recall knowing that there were 
problems with the records.
    Mr. Gosar. No one reported to you that there was any 
problems?
    Ms. O'Connor. I don't recall anybody telling me that there 
were problems with the records.
    Mr. Gosar. Would you consider the conduct of Ms. Learner 
normal?
    Ms. O'Connor. Which conduct?
    Mr. Gosar. The conduct in front of this committee and her 
conduct in front of, you know, supplying a question to the 
audience, seeding a question to the audience? I mean, as an 
employee and somebody supervising records and looking at it, 
would you say the conduct of Ms. Learner as being normal?
    Ms. O'Connor. Well, just to break it out, the question at 
the conference, it wouldn't be something I would advise. In 
terms of the laptop situation, my understanding from the 
material that's become public in the last week or so is that 
she took quite a number of efforts to have the laptop 
reconstructed, and that seems to be appropriate.
    Mr. Gosar. You could also look at it from the standpoint of 
America looking at it is covering up her crime, too.
    Ms. O'Connor. I have no evidence that that's what's 
happening.
    Mr. Gosar. Well, if you're from the inside out, I mean, 
it's pretty interesting that you could actually try to cover 
that up in regards to the way that you look like you're coming 
off on disclosure.
    Let me ask one last question. So the way she took the 
Fifth, is that normal, Ms. O'Connor?
    Ms. O'Connor. I don't have any point of reference for that.
    Mr. Gosar. You've seen plenty of taking the Fifth, have you 
not?
    Ms. O'Connor. I have not.
    Mr. Gosar. You have not? Okay.
    I yield back.
    Mr. Gowdy. I thank the gentleman from Arizona.
    The chair will now recognize the gentlelady from Illinois, 
Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Ferriero, the National Archives and Records 
Administration is required by law to ensure the investigation 
of all allegations of unauthorized disposal of Federal records. 
Is that correct?
    Mr. Ferriero. We don't actually do investigations, but we 
are charged with ensuring that we follow up on any reports that 
we have and urge the agencies to conduct such an investigation, 
yes.
    Ms. Kelly. So you just said you don't investigate the 
allegation yourself, but you do instruct the entity to conduct 
on their own and report back.
    Mr. Ferriero. Right.
    Ms. Kelly. Okay. During the Bush administration from 2001 
to 2008, the National Archives reported that they opened 92 
cases into whether agencies improperly disposed Federal 
records. Does that sound correct?
    Mr. Ferriero. I believe so.
    Mr. Wester. It does
    Ms. Kelly. Okay. If you do the math, that was a little more 
than 11 years ago, or almost 1 per month. Is it fair to say 
that such allegations are relatively common?
    Mr. Ferriero. You have the data.
    Mr. Wester. The allegations are common. I would suggest 
that it's not unique to administrations, but it's reflective of 
the challenges that all Federal agencies have with this issue.
    Ms. Kelly. Okay. On June 17 the National Archives and 
Records Administration sent a letter to the IRS chief in the 
Office of Records and Information Management indicating that 
the loss of some of Ms. Lerner's emails may constitute an 
unauthorized disposal of Federal records. Is that correct?
    Mr. Wester. That is correct.
    Ms. Kelly. Do you think that records retention is a problem 
exclusive to the IRS?
    Mr. Wester. No
    Ms. Kelly. A 2008 Government Accountability Office 
investigation found evidence that several Federal agencies, 
including the Department of Homeland Security and the 
Department of Housing and Urban Development, admitted at least 
one requirement of National Archives regulations related to 
proper management of electronic records. It certainly appears 
that Federal agencies across administrations have struggled 
with records retention.
    What is the NARA's role in developing a long-term solution 
to this problem that will endure even after this administration 
is over?
    Mr. Ferriero. Let me start with just describing the state 
has been self-identified. Over the past 5 years, 4 years, we 
having working with each of the agencies to develop a self-
assessment of where they stand in terms of their control over 
especially the electronic records, and the data shows that a 
high percentage of the agencies self-report that they are at 
high risk. So that's why we have created the directive and are 
moving ahead to create the solutions to those problems.
    Ms. Kelly. And what can agencies do to mitigate this 
longstanding problem? What ideas?
    Mr. Wester. There are a number of ideas, most of which are 
captured within the managing government records directive. As 
we've talked about earlier, agencies need to identify ways to 
automate these processes, to take the human intervention out of 
the activity, because that is where the highest risk for error 
to occur or other things to occur that do not ensure good 
recordkeeping. So to the extent that we're able to have 
industry days and identify private sector vendors and get their 
ideas about how this auto-categorization and automation can 
take place with email and other electronic records and then 
identify what the minimum electronic records management 
requirements are that the National Archives needs to promulgate 
to the vendor community and also to Federal agencies so that 
they can better manage on this electronic content. Those are 
some of the things that we're working on so that we're able to 
meet those deadlines within the directive.
    Ms. Kelly. Because it would seem as though as our 
technologies continue to improve, the amount of information 
that agencies mustmanage and appropriately store increases. So 
how important is it for agencies to make improvements to 
information systems to ensure full compatibility with new 
technologies?
    Mr. Wester. It's very important. They need to think about 
this in several kind of sectors. One is the policy piece, which 
the National Archives is most responsible for in getting that 
piece organized so that they are thinking more creatively and 
differently about how to manage records in automated sorts of 
ways with our support.
    Also thinking about the technology issues, working with the 
vendor community in the private sector to understand how 
automation can be added in cost-effective ways to make this 
happen. Then identify ways that agencies can, in a fiscally 
responsible kind of way, add this technology and implement 
these policy changes so that agencies are managing their 
records to meet their business needs, protect the rights and 
interests of the government, and then from the National 
Archives' perspective, make sure that we're able to get the 
currently valuable records into the National Archives so we can 
make them available to future generations.
    Mr. Ferriero. And there are a couple of other aspects of 
this directive that we haven't touched on that are very 
important. The directive calls for the appointment of--
identification of a senior agency official, not the records 
manager, but senior agency official who takes responsibility 
for records management within that agency, raises the profile 
of records management in the agency.
    At the same time we are working with the Office of 
Personnel Management to create for the first time in our 
government the job family ``records manager.'' There is no such 
thing right now in the records management environment. So we 
have a variety of credentials that are in operation now across 
the Federal Government.
    Ms. Kelly. Thank you. My time is up. I yield back.
    Mr. Gowdy. Thank the gentlelady from Illinois.
    The chair would now recognize the gentleman from Tennessee, 
Dr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Ms. O'Connor, I just wanted to ask you a few questions. 
What was the reason you were hired in May of 2013 to join the 
IRS?
    Ms. O'Connor. So, Mr. Werfel called me the day after he 
started and said that he had undertaken this significant 
challenge and was trying to add a few extra people to help 
him--a chief of staff, a risk officer, and a counselor--and our 
project was to help him, as needed, in various ways to run the 
IRS, which at that point was facing new leadership and had the 
problems that I know your committee knows about.
    Mr. DesJarlais. Your Chief Counsel, William Wilkins, 
testified before this committee that you were a key supervisor 
of the IRS' document review and production process. Would you 
think Mr. Wilkins was correct?
    Ms. O'Connor. I don't quibble with what he said, but as I 
was trying to explain earlier, I wasn't working on that full-
time. There was a large number of people who were working very 
hard full-time, but I worked with them to try to help them.
    Mr. DesJarlais. In your time at the IRS from May 2013 to 
November, did you coordinate the IRS' response to congressional 
requests for documents?
    Ms. O'Connor. I worked with the staff of the committees to 
make sure I understood what they needed. I was certainly a part 
of the process of making sure that what they were asking for 
was delivered to them.
    Mr. DesJarlais. Did you review emails related to IRS 
targeting?
    Ms. O'Connor. So the review process involved an enormous 
number of people who were in sort of tiers.
    Mr. DesJarlais. Okay. Did you review emails?
    Ms. O'Connor. I wasn't in the, you know, set of employees 
who were doing the first level review or the second level 
review, that sort of thing.
    Mr. DesJarlais. Did you redact emails related to IRS 
targeting?
    Ms. O'Connor. I didn't do any redacting, no.
    Mr. DesJarlais. None at all?
    Ms. O'Connor. No.
    Mr. DesJarlais. Okay. Did you determine the schedule of 
making document production to the committee?
    Ms. O'Connor. The schedule was basically as quickly as we 
can----
    Mr. DesJarlais. So you did do that?
    Ms. O'Connor. --and so it was determined by the calendar.
    Mr. DesJarlais. Okay. So you did make the schedule?
    Ms. O'Connor. It was determined by the calendar. Basically 
we looked at how quickly we could amass a sizeable----
    Mr. DesJarlais. Who decided when the IRS would make a 
document production? I mean, who specifically?
    Ms. O'Connor. It really was the calendar.
    Mr. DesJarlais. Okay.
    Ms. O'Connor. I mean, the effort was to do it as quickly as 
could be when there was enough to produce.
    Mr. DesJarlais. Did you interact with the Treasury 
Department while at the IRS?
    Ms. O'Connor. Yes.
    Mr. DesJarlais. Okay. How?
    Ms. O'Connor. How? Telephone call. In person.
    Mr. DesJarlais. Okay. What did you discuss with the 
Treasury Department?
    Ms. O'Connor. It was a variety of things. You know, the IRS 
obviously is part of the Treasury Department. Mr. Werfel 
reported to Secretary Lew, and, you know, there were a variety 
of different things at any meeting.
    Mr. DesJarlais. So did you update them about the response 
to the congressional investigation and targeting?
    Ms. O'Connor. I did provide updates when we were going to 
produce documents that we would be doing it, and things like 
how many documents were in it and that kind of thing, yes.
    Mr. DesJarlais. Did you interact with the White House while 
at the IRS?
    Ms. O'Connor. I didn't. As I explained earlier, I had the 
one interaction where I went with Mr. Werfel as he presented 
his 30-day report to the President. Other than that----
    Mr. DesJarlais. So Just one time?
    Ms. O'Connor. I didn't have communications with the White 
House about my IRS work when I was at the IRS.
    Mr. DesJarlais. Who was your point of contact at the White 
House?
    Ms. O'Connor. For what?
    Mr. DesJarlais. When you were interacting with them? You 
said you interacted once.
    Ms. O'Connor. I didn't have one.
    Mr. DesJarlais. You didn't have a point of contact. Okay.
    When you joined the IRS, were you given training on 
preserving Federal documents--or Federal records?
    Ms. O'Connor. There was an enormous amount of training 
right in the onboarding, and I think it did include records 
management. But there was so much it's actually hard for me to 
remember now.
    Mr. DesJarlais. So it included emails?
    Ms. O'Connor. I think so.
    Mr. DesJarlais. Federal records. Who provided the training 
for you?
    Ms. O'Connor. I think it was computer based.
    Mr. DesJarlais. Okay. Did you back up your emails or 
official records while at the IRS?
    Ms. O'Connor. I think that my computer, because I was in 
the Counsel's office, was being backed up, and when I left, my 
records were all copied by the IT staff in the Counsel's 
office.
    Mr. DesJarlais. Okay. Were you ever aware of an attempt not 
to preserve IRS records by any IRS employee while you were 
there?
    Ms. O'Connor. No, I'm not aware of that.
    Mr. DesJarlais. Do you know, did you store your emails on 
your hard drive?
    Ms. O'Connor. I don't know.
    Mr. DesJarlais. Okay. Do you know what the size of your 
email box was?
    Ms. O'Connor. I don't know.
    Mr. DesJarlais. Okay. That's fair enough. I have no further 
questions.
    Ms. O'Connor. Thanks.
    Mr. Gowdy. I thank the gentleman from Tennessee.
    The chair will now recognize the gentlelady from 
California, Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you.
    I would just like to point out that the Speaker of this 
House today admonished all of us that we need to show respect 
to all the witnesses who come before us. In fact, he said we 
invite people to come and provide testimony, and frankly, they 
should be treated with respect. And I believe respect includes 
asking a question and then allowing a witness to fully answer 
the question and not cutting them off. So I'm hopeful that as 
this hearing and other hearings move forward we will continue 
to show respect as the Speaker of the House has recommended to 
us.
    Let me ask Ms. O'Connor a question or two. Chairman Issa 
issued a report entitled, ``How Politics Led the IRS to Target 
Conservative Tax-Exempt Applicants for Their Political 
Beliefs.'' The report alleged that the President's political 
rhetoric, quote/unquote, is what, quote, ``led the Internal 
Revenue Service's targeting of tax-exempt applicants.''
    Ms. O'Connor, did you see any evidence that IRS employees 
were motivated by politics or political bias in screening 
applicants for tax-exempt status?
    Ms. O'Connor. So as I said earlier, I joined the effort 
after it started at the end of May, and I left midstream at the 
end of November, and so I didn't see all the documents that 
were produced even while I was there and more continued to be 
produced after I left, and I didn't talk to witnesses. All that 
said, I didn't see any evidence of that, no.
    Ms. Speier. Are you part of a government-wide conspiracy to 
target President Obama's political enemies?
    Ms. O'Connor. Absolutely not.
    Ms. Speier. Are you here voluntarily and not a hostile 
witness?
    Ms. O'Connor. I'm not hostile. I did receive a subpoena.
    Ms. Speier. Would you have come had you not received a 
subpoena last night?
    Ms. O'Connor. Well, the initial response that we gave 
pointed out that I didn't have a lot of relevant information 
because I had only been at the IRS for the 6 months and it was 
after Ms. Lerner's material was collected and it was before the 
discovery that she had emails that were not recoverable 
connected to a computer failure. So I think the initial 
reaction was there would be many better witnesses to assist the 
committee.
    Ms. Speier. All right.
    Now, Mr. Ferriero, for a long period of time the IRS did 
not back up their records, and in fact it was incumbent on each 
of the employees to print a copy of any email that they thought 
was relevant for historical perspective, which is alarming in 
and of itself. It's also pretty alarming that they are still 
using Windows XP, which was first used in 2001, and Microsoft 
does not even support that anymore.
    So I think for every American who pays taxes there's a 
great sense of insecurity in not knowing that any communication 
they have with the IRS may in fact be lost, and if there is one 
agency that we want to have comprehensive backup, it would be 
the IRS. Is that correct?
    Mr. Ferriero. I agree. But I also can testify that this 
issue about outdated technology exists in many agencies across 
the government.
    Ms. Speier. All right. So this is a problem we should be 
looking. Maybe this committee could undertake something that 
was constructive in nature and look at all of these agencies 
and whether or not there is sufficient backup of documentation.
    As I understand it, when Mr. Werfel came to the agency back 
in May of 2013, he made a decision, implemented IRS-wide, that 
would require that there would be a daily backup of its email 
servers. Is that correct?
    Mr. Ferriero. I don't know that.
    Ms. Speier. So you don't know that.
    Do you know that, Ms. O'Connor?
    Ms. O'Connor. He did
    Ms. Speier. He did. So now we can confidence in knowing 
that at the end of every day, there's a backup. All emails that 
have transpired during the day are backed up within the IRS. Is 
that correct?
    Ms. O'Connor. That was my understanding when I was there.
    Ms. Speier. All right. So my only question is, on the one 
hand, last night the Commissioner said we have had all these 
cutbacks and we need more money to be spent to be able to have 
the kinds of servers necessary to retain all this information. 
Mr. Werfel did take steps to back up everything. Are we at a 
point where everything is backed up, or do we still need more 
technology?
    And, Mr. Ferriero, maybe you can answer that.
    Mr. Wester. Actually, the point I'd like to make about that 
is that having a backup system in place is not a recordkeeping 
system, and that's, I think, part of the discussion about what 
kinds of technologies do agencies need to have to have 
effective electronic recordkeeping. The actions that have been 
described that the IRS has taken meet the needs of being able 
to produce emails and other electronic records for inquiries 
like from committees like this one, but it does not deal with 
the electronic recordkeeping issues that agencies need to deal 
with around disposition and preservation and access for 
business needs within agencies necessarily.
    Ms. Speier. All right.
    Mr. Chairman, I know my time has expired, but I just wanted 
to point out on behalf of our colleague, Mrs. Maloney, that her 
point was that 501(c)(3)s and 501(c)(4)s are tax exempt, not 
that the donors' contributions necessarily are tax exempt, but 
that the 501(c)(3)s and (c)(4)s are tax exempt for purposes of 
collection of taxes.
    Chairman Issa. [Presiding] Well, you know, I appreciate 
your pointing that out. I think the point--and I received a 
text from the Ways and Means who thanked us for helping point 
that out because it's one of their frustrations over at that 
committee. The fact is that corporations in America, if they 
take in, let's just say that they're providing a computer 
service, if they take in a million dollars and they spend a 
million dollars doing support and they have nothing left over 
at the end, they also pay no taxes.
    Ms. Speier. That's correct.
    Chairman Issa. So a 501(c)(4) who takes in a million 
dollars from people who want to have it do some service and 
spends it all pays no taxes. So the difference is a 501(c)(3), 
people may give a million dollars and avoid nearly half a 
million dollars in personal taxes. So the difference in 
scrutiny for a 501(c)(3)'s activities, not being political 
because political contributions are not tax deductible, the 
501(c)(4)s follow the same rules as your PAC.
    Ms. Speier. Except that my PAC has to disclose who makes 
donations to me.
    Chairman Issa. And I truly appreciate----
    Ms. Speier. And the 501(c)(4) does not.
    Chairman Issa. And I truly appreciate that. The fact is 
that Congress in its wisdom has not legislated that disclosure. 
We did not put it under the Federal Election Commission, a 
place where Lois Lerner worked for many years, we did not 
empower that. So the President's OFA does not have to disclose. 
That's just simply the law as it is.
    I just want to make sure, and I think Mrs. Maloney was very 
surprised, that people do not get a tax write-off for giving to 
501(c)(4)s, therefore the term ``tax exempt'' doesn't have the 
meaning that most people think it has when they lump together 
charities, 501(c)(3)s.
    And it is extremely important. The American Heart 
Association, the American Cancer Association cannot engage in 
49 percent of its activities in favor of promoting candidates 
because it's a charity, and there is a huge difference, and 
it's a difference I think the Ways and Means is sensitive to 
because legislating changes is serious business. 501(c)(4)s, in 
fact, do not enjoy that, just as your homeowners association 
doesn't.
    Ms. Speier. Except that 501(c)(4)s are supposed to be 
exclusively for social worker purposes.
    Chairman Issa. I appreciate that, but the court's 
standing----
    Ms. Speier. And they are not.
    Chairman Issa. --is majority.
    I now recognize Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
ask the chairman to admit into the record a letter dated June 
23, 2014, from the White House, Neil Eggleston, Counsel to the 
President. This is a follow-up on what was just----
    Chairman Issa. The letter from the White House will be 
placed into the record, without objection.
    Mr. Cummings. --explaining what Ms. O'Connor was saying 
with regard to hostile witness. Just explaining, just as you 
explained yours.
    Chairman Issa. Noncooperative witness, they refused to 
provide her. She has been informative. I appreciate that.
    Mr. Cummins. Mr. Chairman, you admitted it?
    Chairman Issa. It's in the record.
    Mr. Cummings. Thank you
    Chairman Issa. The gentleman from Texas is recognized. 
Would the gentleman yield me 10 seconds?
    Mr. Farenthold. Certainly.
    Chairman Issa. I just want to put it in perspective for Mr. 
Wester, and if you agree, you can answer on the gentleman's 
time. If we continue to collect data the way they're 
describing, what you're doing is effectively taking all the 
data at the end of 6 months and throwing it in a trash heap. 
And then the difference, if you just collect a bunch of tapes, 
is the equivalent of owning the yard that your trash is hauled 
to and saying it's all there.
    If I understand correctly, what you're trying to achieve 
with Capstone, Mr. Ferriero is, in fact, to have the meaningful 
data retained so that it's searchable and usable while 
recognizing that the vast majority of data is likely not to be 
of any value. And certainly you would not want to search 
through it to find the important data that is effectively being 
thrown out today.
    Mr. Wester. Yes.
    Chairman Issa. Thank you.
    Thank you, Mr. Farenthold.
    Mr. Farenthold. Thank you.
    Ms. O'Connor, I want to follow up on some questions Dr. 
DesJarlais asked. He mentioned, and you said you had gone 
through extensive training with the IRS on their document 
retention records policy and that you felt like your laptop was 
probably automatically backed up. But the actual document 
retention policy doesn't have to do with back up or saving 
files. It has to do with printing out things that you believe 
fall under the Records Act. How many, in your tenure at the 
IRS, you have an idea how many things you printed out to keep 
for the archives?
    Ms. O'Connor. I have no volume, but just to get back to 
the--I just want to make sure it was clear what I said. I went 
through extensive computer-based training. I don't think that 
much of it was on records retention. All that said, I did 
understand----
    Mr. Farenthold. Did you print out any to save?
    Ms. O'Connor. Oh, absolutely.
    Mr. Farenthold. Would it have been more than one or two a 
day?
    Ms. O'Connor. I don't have a recollection, but what I 
explained is that what happened with my electronic material 
when I left is that the IT people in the Chief Counsel's office 
collected that and copied it, they made a copy of it. And my 
paper records were all transferred so that they could continue 
to be used by my successor.
    Mr. Farenthold. And so when you printed them out was there 
just like an inbox type thing on your desk, you stuck them in? 
What did you do with them after you printed them out?
    Ms. O'Connor. I had files in my office.
    Mr. Farenthold. Was it one big file or was it broken up 
under files based on subject matter? Do you recall how that was 
done?
    Ms. O'Connor. It was in different categories. I can't 
really remember.
    Mr. Farenthold. Okay. I guess what I'm getting at is, I'm 
trying to imagine the amount of work necessary to go in and 
recover, say, something from Ms. Lerner, and then the amount of 
work that eventually goes in when those documents get to the 
National Archives for sorting them out.
    Ms. O'Connor. I don't have a good point of reference.
    Mr. Farenthold. Mr. Ferriero, let's talk about the records. 
I mean, assuming you have got your Capstone project, would you 
rather have more records or less records?
    Mr. Ferriero. I would rather have the right records. And 
the identification, the work that goes on between the records 
manager and the agency and my records management staff is the 
creation of schedules.
    Mr. Farenthold. But you don't always know what's going to 
be an important record at the time you get the email. I mean, 
if there was an email about what parking place somebody is 
going to get assigned, that probably isn't an important record 
until maybe, God forbid, an employee comes in with a car bomb 
and parks in that parking place. All of a sudden it becomes 
relevant. So trusting an individual at the time it's happening 
to decide what is a Federal record probably is not a very good 
way to do it.
    Mr. Ferriero. I agree, I agree, and that's why the Capstone 
takes that part of the process completely out. It captures 
everything for the senior executives of the agency.
    Mr. Farenthold. So what's the cost of implementing it? I 
mean, does it work just like something that plugs into the 
network and captures email, I mean, in a broad general term?
    Mr. Wester. So in general when agencies look to deploy a 
Capstone sort of solution to manage their email, they are 
usually doing it in the context of upgrading their email 
system. So at the National Archives in the past couple of years 
we've transitioned the email systems, and part of what we have 
done is rolled out this Capstone technology implementation 
along with the policies.
    Mr. Farenthold. And so you've got it, it's off the shelf, 
if somebody wants it, they can buy it for their agency?
    Mr. Wester. It's not quite that simple, but it's COTS 
products that then have to be integrated by the IT shop.
    Mr. Farenthold. So again, I used to work in IT. I mean, is 
it as simple as plugging in a server and loading some software 
and making sure you have enough storage space on it? I mean, is 
there much more to it? I mean, obviously, configuration and 
such. But I can't believe the IRS Commissioner testified $10 
million to put in a solution like that last night. Is that an 
accurate number?
    Mr. Wester. I don't know if it's an accurate number or not, 
but what I would say is that as agencies are moving to the 
cloud and as they're trying to identify solutions that can make 
Capstone work, it's not a free activity. There are costs 
associated with doing integration and other sorts of things.
    Mr. Farenthold. But certainly saving it digitally is a lot 
cheaper than printing something out when industry standards say 
each page you print out costs between 5 and 8 cents. It's got 
to be a massive savings over that.
    Mr. Wester. There are probably massive savings with moving 
to electronic recordkeeping. Then also it's much easier to 
provide access electronically than having to provide boxes on 
carts in research rooms as we do today.
    Mr. Farenthold. All right, I see my time has expired.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Missouri, Mr. Clay.
    Mr. Clay. I'm in shock, Mr. Chairman, but thank you anyway.
    Chairman Issa. Oh, wait a second.
    Ms. Norton, I apologize.
    Mr. Clay. It's Ms. Norton.
    Chairman Issa. They said Clay, but you have returned, and 
I'm thrilled to see the delegate from the District of Columbia, 
Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I just 
thought you were looking through me.
    We have been asking about backups here. And by the way, as 
the last member, my friend from Texas indicated, and I couldn't 
agree more about electronic backup as opposed to paper, of 
course it costs money to do hardware and to get those things. 
And so when you already have the old-fashioned stuff you go 
with the more costly old-fashioned stuff. And that's been the 
story of the IRS, and of many of our Federal agencies, because 
it takes money to do things like that. It takes money to save 
money.
    Before I go any further, we've been talking about Federal 
records of the kind of course that Congress would subpoena. 
Those are not the records that the average American would be 
most concerned about. The Federal records they would be most 
concerned about, for example, are their own taxpayer documents. 
Could I ask if there is backup for taxpayer documents, when you 
file your income taxes, for example?
    Mr. Wester?
    Mr. Wester. I do not know the answer to that question. That 
would be most appropriately brought up with the IRS.
    Ms. Norton. Mr. Ferriero?
    Mr. Ferriero. I agree that that's an IRS question.
    Chairman Issa. If the gentlelady would yield?
    Ms. Norton. I'd be pleased to yield.
    Chairman Issa. We earlier had an oversight of IBM's role in 
the subcontracts to Mr. Castillo and so on. At that time I 
became aware that, yes, the electronic data for filing of 
taxpayer records, which is the vast majority of filing today, 
which is far greater and far more vast than these emails we're 
discussing, does have a system and a backup, and it is a big 
part, a significant part of the $1.8 billion spent on IT. 
That's actually one of the interesting points of, this is the 
small back end of the IRS compared to their massive spending in 
that database.
    Ms. Norton. Mr. Chairman, could I ask you, at the same 
time, did we discover at that time whether there's backup for 
the healthcare data that's coming into the IRS, since these 
witnesses apparently don't have that----
    Chairman Issa. You know, my confidence is high that it does 
exist in that data trove, but that came in after our 
investigation. But it is a significant part, hundreds of 
millions of dollars of the IRS' new budget go forward is the 
maintenance of those transactions.
    Ms. Norton. As the chairman says, this is kind of the back 
end, and this doesn't come up very often. It's very important. 
And let me say, because there has been a lot of back and forth 
and contentious--not testimony, contention among members--so 
let me just say for the record, whenever anybody loses emails 
there is always going to be a suspicion. So I just want to say 
that for the record.
    My concern was that nothing that Lois Lerner did, 
contemporaneous emails, and the question is, if you do lose--if 
you do crash, could I ask both of you, if you crash, if you're 
in the old IRS, because that's where these people are now, what 
should you do when you know that you may be called before a 
committee of Congress? What should you do when they tell you 
they couldn't retrieve your emails? What precautions should you 
take?
    Mr. Wester. So what we counsel agencies to do is to make 
sure that IT, the legal counsel, and the records management and 
records officers are all working together on the different 
aspects of the Federal Records Act to make sure that records 
are identified and preserved and policies are being followed. 
If there were a crash of an individual's hard drive----
    Ms. Norton. Apparently there have been a great number of 
crashes.
    Mr. Wester. Yes. So a crash in and of itself doesn't 
necessarily mean that Federal records have been lost, but it 
does indicate that there are probably issues that need to be 
addressed with the IT organization, with the records 
organization, with the----
    Ms. Norton. I'm now assuming the records have been lost. 
Obviously, that's catastrophic.
    Mr. Wester. Yeah.
    Ms. Norton. And somebody is going to be accused, as has 
occurred here, because there is hardly any way to prove that 
negative. So I want to know what precautions should be taken. 
They tell you the records are lost, it's a crash, what should 
be done? Because we may have this situation again, and now we 
know that the suspicion will come up. And I don't regard the 
suspicion as unfounded. I just think that the suspicion needs 
to be shown. So I need to know what you should do since I don't 
see any way we can avoid this happening again, and so if we get 
new software and new computers.
    Mr. Ferriero. So the first step is to notify the National 
Archives that there is a problem so that we can start the 
process.
    Ms. Norton. Do you know whether this was done in this case?
    Mr. Ferriero. It was not done.
    Ms. Norton. So that's the first thing, to notify the 
National Archives, even before you try to retrieve it. Just 
say, look, I've lost something. I want you to know it. Go 
ahead.
    Mr. Ferriero. And we would, as we did in this case when we 
found out, write a letter to the records manager there.
    Ms. Norton. When did you find out in this case?
    Mr. Ferriero. We found out when you did, that letter to 
Senators Wyden and Hatch, and we submitted our letter.
    Ms. Norton. So what's the point of notifying you, just for 
credibility sake? Is that it?
    Mr. Ferriero. Well, no, because it's we're demanding that 
they investigate and report back to us in 30 days what's the 
situation.
    Ms. Norton. Yeah. Of course they were already doing that. 
So it must be more than that. I mean, they weren't just sitting 
there.
    Mr. Ferriero. This is the first indication we had that 
there was a problem. So we snap into action when we're 
notified. We weren't notified----
    Ms. Norton. But you were convinced that they were already 
trying to do that?
    Mr. Wester. Well, what was going on at the time, it was 
clear that activity was going on. What was not clear to me 
until that letter appeared was that there were emails that 
potentially were not able to be reproduced and were lost. And 
that's the difference for us. There is a lot of activities that 
go on across the government every day to recover, you know, 
crashed hard drives or other kinds of IT issues. But it becomes 
a serious concern of ours when it becomes increasingly clear 
that records may have been lost. That's when we do get into 
action.
    Ms. Norton. Yes, sir?
    Chairman Issa. Go ahead. If the gentlelady would close up.
    Ms. Norton. I was going to say, when it becomes clear, I 
mean, it either is clear or not clear. It can't be increasingly 
clear. Someone has to look and it may take some time. At the 
end of that search, then you can conclude it's lost or not 
lost.
    Chairman Issa. You can answer if you would.
    Mr. Wester. Actually, I wanted to make a couple of points 
related to this if it was okay.
    Chairman Issa. Sure.
    Mr. Wester. An individual in an agency should be working 
with their records officer to make sure that they're managing 
their records within the official recordkeeping system. I am 
not familiar with too many official recordkeeping systems that 
entail saving records on a hard drive to maintain them. You 
would do that for access purposes or reference purposes or 
things like that, but not as an official recordkeeping system.
    So part of what we would counsel agencies to do is be in 
contact with your records officer, be in contact with your IT 
staff, be in contact with your counsel so when these issues 
happen you can figure out what needs to be done from a Federal 
Records Act perspective.
    Going forward with the directive and having agencies manage 
email in automated ways by the end of 2016 and pursuing 
Capstone and other sorts of policy ideas that we have 
promulgated with the directive, we anticipate a day where we'll 
be able to remove human intervention from this sort of activity 
and then be able to manage these records more effectively.
    Chairman Issa. Thank you.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Issa. We now go to the gentleman from North 
Carolina for 5 minutes. I would ask for just 10 seconds if I 
may.
    Mr. Wester, would it be fair to say that when you should 
have been informed if Lois Lerner knew that there could be 
Federal records on the lost drive, it would have been at the 
point that she discovered her drive was broken and/or at the 
point they were convinced they couldn't recover it? At that 
point wouldn't it have come to the National Archives as now you 
get to try to recover them if there are known to be Federal 
records on them? That would have been the timeframe is what I 
think I asked.
    Mr. Wester. It would have been preferred for us to know 
about it when there was an issue that would have indicated that 
email was lost.
    Chairman Issa. Right. And on hundreds of other places where 
Lois Lerner could have helped you look for and find the records 
that would have existed in real time rather than years later.
    Mr. Wester. The reason I'm having difficulty answering that 
question, it's more of an operational issue within the IRS as 
opposed to a National Archives sort of issue.
    Chairman Issa. But prompt reporting to you makes a 
difference.
    Mr. Wester. Yes, because the prompt reporting to us allows 
the agency itself to be on notice to itself with our imprimatur 
that they need to take action.
    Chairman Issa. Thank you.
    Mr. Meadows.
    Mr. Chaffetz. Mr. Chairman, can I ask unanimous consent 
that the gentleman from North Carolina be allowed to----
    Chairman Issa. Without objection, so ordered.
    Mr. Chaffetz. Thank you.
    Mr. Meadows. I thank the gentleman from Utah.
    And thank you, Ms. O'Connor. It's good to have you back, 
good to see you again. In your testimony, you talked about when 
you got to the IRS in May of 2013 that all of Lois Lerner's 
emails were in this area to be redacted and worked on. Is that 
correct? That's what you had----
    Ms. O'Connor. I think they were still in the processing 
part where they were being flattened and decrypted, but they 
had been gathered already.
    Mr. Meadows. So they had all been gathered. Was there not 
anybody who looked and saw this huge hole between 2009 and 2011 
and says, man, this is really strange that the email activity 
during this period, a lot of it disappeared. Was there anybody 
that looked at it, like you would look--like Treasury would 
look at a counterfeit dollar and say, gosh, this is a fake. Was 
there not anybody that raised that concern?
    Ms. O'Connor. So it wasn't brought to my attention, and----
    Mr. Meadows. Would you be mad about that? Since you were 
overseeing that, wouldn't you be mad if somebody saw that and 
didn't bring it to your attention?
    Ms. O'Connor. If somebody had seen it, I would have hoped 
that it would have been brought to my attention.
    Mr. Meadows. So, you think that somebody didn't see it?
    Ms. O'Connor. I have no reason to think that anybody saw it 
and didn't say anything about it.
    Mr. Connolly. Mr. Chairman, can I ask the witness please to 
speak into the microphone, Ms. O'Connor?
    Mr. Meadows. Ms. O'Connor, can you move it closer?
    Ms. O'Connor. Yes, I'm sorry.
    Mr. Connolly. If you could speak into it. Thank you.
    Ms. O'Connor. Sorry about that.
    Mr. Meadows. So, who is responsible for making sure that 
all the documents and materials are complete to submit to this 
committee, or any other committee, who is responsible to make 
sure that that body of work is complete?
    Ms. O'Connor. I think it's probably the head of whichever 
agency has been asked----
    Mr. Meadows. And so we just trust them to make sure that 
it's complete. So there's no real oversight within the IRS to 
make sure that what we get is complete?
    Ms. O'Connor. I mean, within the IRS we had a whole number 
of different layers of sort of quality checking to make sure 
that the materials that were being reviewed were appropriately 
redacted and were then produced.
    Mr. Meadows. But there was no--all those layers, there was 
really nobody that was there saying, well, we've got everything 
we need?
    Ms. O'Connor. The thing that I think is challenging about 
the situation is that I believe that the people who collected 
all of Ms. Lerner's material most likely believed they had it 
all because they got successfully what was on her hard drive. I 
think the missing piece was not knowing that there had been a 
crash.
    Mr. Meadows. So when they looked at, and they were going 
back to 2009, they didn't see that there was a whole big hole 
of where all of a sudden the email volume picked up in June of 
2011 when she got her new hard drive. They wouldn't have seen 
just this unbelievable anomaly of additional emails?
    Ms. O'Connor. So nobody brought it to my attention. I 
didn't----
    Mr. Meadows. So let me go on a little bit further because 
here is the bombshell in all of this. Every one of us have been 
counting on the TIGTA report for a chronological of who knows 
what when. Over 65 percent of what they reported were solely 
based on emails. So if we have a whole lot of emails that are 
missing, wouldn't that suggest that the whole TIGTA timeframe 
is at best incomplete?
    Ms. O'Connor. So one of the things that I think is 
important in this is that my understanding is what the IRS has 
done is provided all the emails to----
    Mr. Meadows. But that's after the TIGTA report. During the 
TIGTA report, what they reported, because this is new since 
then, wouldn't you agree that at best it is incomplete? Yes or 
no? You're a smart person. I have dealt with you before. Yes or 
no? Wouldn't you agree that it would be incomplete?
    Ms. O'Connor. I can't answer, and I can tell you why. The 
reason why is because my understanding of the TIGTA report is 
that it was based on interviews, extensive interviews.
    Mr. Meadows. It was based on 30 percent interviews, 65 
percent--I have read the TIGTA report more--it has put me to 
sleep a number of times. So in that, if most of it's based on 
emails, wouldn't you say that if you didn't have all the emails 
that the TIGTA report might not be the full story? It's a real 
easy answer.
    Ms. O'Connor. If there were a significant and relevant 
email that was missing then that might be true, but----
    Mr. Meadows. And now we know that there are thousands of 
emails that they never got to see from Lois Lerner, and maybe 
several others.
    Ms. O'Connor. I'm not sure that we know that there are 
thousands that we haven't----
    Mr. Meadows. Okay. All right. So let me go on very quickly 
to my good friend there with the National Archives, and I say 
that in a sincere fashion. Now that we found last night that 
not only is it Lois Lerner's hard drive, but it's a number of 
other people at the IRS, do they call you on a regular basis to 
say, listen, we may have this problem? Have you gotten a number 
of notifications from those higher officials that have had hard 
drive issues?
    Mr. Ferriero. Not to date.
    Mr. Meadows. Neither of you?
    Mr. Wester. No.
    Mr. Ferriero. So we have a Federal law that is being 
ignored by the IRS.
    I'll yield back.
    Mr. Chaffetz. [Presiding] Thank the gentleman.
    Now recognize the gentleman from Missouri, Mr. Clay, for 5 
minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    And let me provide a recent history lesson to my 
colleagues. During the administration of President Bush 
government officials lost millions of emails, including 
significant numbers of White House emails in the midst of 
congressional and criminal investigations. In one instance, the 
Bush administration lost nearly 5 million emails related to 
various White House matters under investigation by Congress. At 
the time a White House spokesman stated, ``We screwed up and 
we're trying to fix it.''
    Mr. Ferriero, your predecessor Allen Weinstein wrote to the 
White House counsel at the time, Fred Fielding, and said this: 
``It is essential that the White House move with the utmost 
dispatch both in assessing any problems that may exist with 
preserving email and in taking whatever action may be necessary 
to restore any missing email.'' Those Bush era documents were 
also pertinent to criminal and congressional investigation.
    In 2006, special prosecutor Patrick Fitzgerald hit a 
roadblock when emails relating to the Valerie Plame leak 
investigation went missing. Fitzgerald explained, ``Not all 
email of the Office of the Vice President and the Executive 
Office of the President for certain time periods in 2003 was 
preserved through the normal archiving process on the White 
House computer system.'' In 2009, the Department of Justice 
investigated a so-called torture memo, but one key Bush 
administration official's relevant emails had been, 
``deleted,'' and reportedly were not recoverable.
    Mr. Ferriero, I understand that you were not the Archivist 
in the previous administration, but I assume you agree that the 
IRS is not the only agency to have lost emails related to 
congressional investigations. Is that correct?
    Mr. Ferriero. That's correct.
    Mr. Clay. And I assume you also agree that the Federal 
Government has had significant and longstanding challenges with 
records retention, especially that of emails. Is that----
    Mr. Ferriero. From the very beginning of the government.
    Mr. Clay. From the very beginning of us using emails.
    Mr. Ferriero. And using paper. This is not just an email 
problem. This is a records management problem.
    Mr. Clay. And according to the General Counsel of the 
Archives at the time, the Archivist's requests to the Bush 
White House went largely ignored. My, my, what a few-- how a 
few years changes things.
    You know, the General Counsel reported that the National 
Archives knew, ``virtually nothing about the status of the 
alleged missing White House emails.'' Mr. Ferriero, can you 
discuss some of the policy changes President Obama has made to 
improve records retention throughout the Federal Government?
    Mr. Ferriero. As I described earlier, he has issued a 
memorandum on records management, the first time since the 
Truman administration that the White House has gotten involved, 
recognized an issue around records management, and authorized 
the creation of a directive by the Office of Management and 
Budget and myself that went to all the agencies outlining what 
we need to do to get our act together, as well as a set of 
promises about how the Archives is going to support that work 
involving industry partners in creating new tools, creating 
more visibility, credibility within all of the agencies around 
records management, professionalizing records management across 
the government, doing a better job of training every member of 
the Federal Government in terms of their records 
responsibilities. So there has been a huge focus on records 
management.
    Mr. Clay. So you have seen a change in how IT managers at 
the different agencies archive?
    Mr. Ferriero. There has been a great deal of interest, 
support, and collaboration for the first time that I can see 
between the records management community and the CIO community 
in the Federal Government.
    Mr. Clay. And do you believe that President Obama has made 
retention of these records a priority of his administration?
    Mr. Ferriero. The administration certainly understands the 
problem and has authorized the direction for us to implement 
new ways of solving this problem.
    Mr. Clay. Thank you.
    Mr. Connolly. Would my friend yield for a question?
    Mr. Chaffetz. The gentleman's time has expired.
    Mr. Connolly. I would ask the chair for a little leeway 
given the fact that the chair of the full committee has many 
times been granted time throughout this hearing.
    Mr. Clay. I have been patient, Mr. Chairman, all morning.
    Mr. Connolly. I simply have a question for my colleague if 
the chair would allow it.
    Mr. Chaffetz. Proceed.
    Mr. Connolly. I thank the chair. Is it not true, you 
brought the Bush administration experience, is it not true that 
many of the 5 million emails that were lost that you described 
were, in fact, deleted. It wasn't because of crashed computers. 
They were actually deleted.
    Mr. Clay. Sure. Intentionally deleted----
    Mr. Connolly. Intentionally deleted.
    Mr. Clay. --in order to hide whatever it is they didn't 
want the public to see----
    Mr. Connolly. I thank my friend.
    Mr. Clay. --out of the Vice President's office, of all 
places.
    Mr. Connolly. I thank my friend. I thank the chair for his 
courtesy.
    Mr. Chaffetz. The gentleman's time has expired.
    I now recognize the gentleman from Pennsylvania, Mr. 
Meehan, for 5 minutes.
    Mr. Meehan. I thank the chairman and remind my colleagues, 
Mr. Fitzgerald was a colleague of mine. There were people that 
were investigated and convicted as a result of that matter. We 
have gone a long way in this without even getting close to that 
particular issue.
    Ms. O'Connor, I have great respect for your history as an 
attorney, and you, yourself, have identified that you managed 
complex litigation matters before you came here. So I'm asking 
for some of your insight even though this may have been prior 
to your actual involvement. But in June--early in June 2011, in 
fact, June 3, chairman, Ways and Means Chairman Dave Camp sent 
a letter to Doug Shulman, the Commissioner, in which he 
identified alleged discriminatory practices on the part of the 
IRS very specifically. From your perspective, when somebody 
alleges discrimination, do you think that there is ever a 
chance that that matter gets to litigation?
    Ms. O'Connor. Allegations of discrimination do sometimes 
get to litigation, yes.
    Mr. Meehan. Yeah, so they do sometimes get to litigation, 
don't they now?
    Mr. Connolly. Mr. Chairman, could I please just ask the 
witness to speak into the microphone?
    Ms. O'Connor. I'm very sorry, sir.
    Mr. Meehan. Around 2011, in fact, very similar to the same 
time, there were a series--there had only been 2,000 pages of 
responsive materials when these original requests had come in, 
only 2,000 pages, but hundreds of those 2,000 pages that came 
from the IRS were materials and emails that were purportedly 
showing that the efforts were being directed not just to 
conservative organizations, but at liberal organizations as 
well.
    So we have, in my mind, a very responsive body on the part 
parsing the materials that are being returned in response to 
the Ways and Means subpoena. So knowing that there are 
discriminatory allegations and knowing that the IRS and those 
who are advising the IRS and the very limited return are using 
great degrees of discretion in the form of the materials they 
are returning, how do you comport with the responsibility under 
the law of what is emails which may be subject to electronic 
discovery? This is not ambiguous. Certain electronic records 
may need to be identified and preserved when litigation is 
anticipated. Why was there not an effort undertaken on the part 
of people to preserve those records as far back as 2011?
    Ms. O'Connor. Which records in particular?
    Mr. Meehan. The records of Lois Lerner. And she was advised 
in January of 2011 very specifically that her communications 
were potentially the subject of discriminatory practices. And 
by your own admission there is a recognition that those emails 
may be subject to litigation by the requirements in preparation 
for litigation. As an attorney, I used to receive those. You 
are required to maintain those. Why weren't those emails 
retained in 2011 when she had notice that she was potentially 
subject to discriminatory practices?
    Ms. O'Connor. I don't know. I wasn't at the agency then.
    Mr. Meehan. Well, I do have a question about that, and 
that's one of the problems, because it appears that that also 
happens to be just the same timeframe, just the same timeframe 
within weeks in June 2011 that seven people from IRS had their 
computers crash. Pardon me for being suspicious about the 
timing.
    Now, in terms of response, and response to emails that have 
actually been sent to us here--well, I'm sorry, my time has 
expired. I had one more follow-up question, but I'm not going 
to be able to do it.
    Mr. Chaffetz. You still have 15 seconds. Go ahead.
    Mr. Meehan. Yeah, I need a document. Wait a second. I have 
it. I have it right here.
    The question is responsing to all emails. There have been 
numerous requests from this committee and others for all of 
Lois Lerner's emails. And yet, in a letter that just came only 
probably a week or two ago, we have the IRS telling us that 
fulfilling the request would require that you go beyond the 
search terms that were originally loaded for review. So let me 
ask, why are there search terms for emails when every email is 
being requested, and this is only weeks ago that we're finding 
this response? What is ambiguous about every Lerner email?
    Ms. O'Connor. So I believe all of the--I don't know if it's 
all, but many of the pieces of correspondence that accompanied 
the documents that were produced referred to the fact that they 
were produced according to the terms that we had talked with 
your staff and other staffs about, the committee staff. I mean, 
there are four different committees doing investigations. We 
met with all four staffs, asked them to provide search terms. 
The staff of this committee provided many of those terms.
    Mr. Meehan. But you're saying it was their response. What 
is ambiguous about all?
    Mr. Chaffetz. I'm sorry, the gentleman's time has expired. 
You may complete your answer.
    Ms. O'Connor. The reason that in any large document 
production search terms are applied is that it enables the 
people who are seeking the material to get what they want 
faster. That's the reason for the use of search terms.
    Mr. Chaffetz. The gentleman from Virginia, Mr. Connolly, is 
now recognized for 5 minutes.
    Mr. Connolly. I thank the chair.
    Mr. Ferriero, there are 90,000 employees in the IRS, is 
that correct, to your knowledge?
    Mr. Ferriero. To the best of my knowledge, yes.
    Mr. Connolly. How many of them have computers?
    Mr. Ferriero. I have no idea.
    Mr. Connolly. Mr. Wester, any guess?
    Mr. Wester. I do not have one either.
    Mr. Connolly. Do you know how many computers? We had 
testimony last night from Commissioner Koskinen, so far this 
year, and it's only June, 3,000 IRS computers have already 
crashed. Were you aware of that fact?
    Mr. Wester. From the testimony last night, yes.
    Mr. Connolly. So that's a pretty high percentage. Well, 
let's assume, therefore, if we stay on that trajectory, we're 
going to have 12,000 computers crash in the IRS alone, right? 
If you double the number? I mean, excuse me, 6,000.
    Mr. Wester. Six thousand.
    Mr. Connolly. Six thousand. That is a pretty high 
percentage every year of, if you assume 90,000 computers, the 
maximum number, that's a lot. And my friend from Pennsylvania 
sees some conspiracy, it's just coincidental that right after 
her computer crashed, Lois Lerner, seven people in Cincinnati 
go rogue on us and created BOLOs that, you know, seem to be 
nefarious. But the fact of the matter is, there is no evidence 
that because of one thing happening in Cincinnati it is 
related. I mean, that is a logical fallacy that is taught in 
law schools and in logic courses. The two are not necessarily 
related. In fact, there is no evidence the two are related 
unless one wants to treat Lois Lerner's computer crashing as a 
unique event in the IRS, which is indisputably not true. Would 
you agree with that, Mr. Ferriero?
    Mr. Ferriero. I agree with that.
    Mr. Connolly. And this isn't unique to the IRS, is it? I 
mean, we're dealing with an aging set of IT investments in the 
Federal Government because we don't keep up with investment. 
The chairman and I, Chairman Issa, have introduced a bill, 
FITARA, the Federal Information Technology Acquisition Reform 
Act--a mouthful--otherwise known as Issa-Connolly, which, thank 
God, is being marked up this week in the Senate. Passed the 
House three times unanimously. And it is designed to try to 
upgrade our investments. We spend $82 billion a year in IT 
investments; $20 billion at least is inefficiently used for 
just maintenance of legacy systems. And that's got to be of 
enormous concern, and if Congress wants to do something about 
it, wouldn't it be a wise thing to try to make some prudent and 
targeted investments, Mr. Ferriero, so we're not dealing with 
this kind of issue?
    Mr. Ferriero. It sure would, and you'd have a lot of 
friends in both the CIO and the records management community if 
this gets passed.
    Mr. Connolly. Right. Now, I heard you say earlier that the 
Federal Records Act requires print and save as the policy.
    Mr. Ferriero. And I misspoke. It doesn't--that language is 
not actually in the law, but that's the guidance that many 
agencies are following.
    Mr. Connolly. All right. So based on that law, some 
guidance was issued that says, at least for now, print and 
save. I assume the reason for that guidance is because with 
antiquated systems we don't want to take the risk of backup 
that could crash.
    Mr. Ferriero. Well, actually, the guidance came before 
electronic mail was even----
    Mr. Connolly. Oh, so we haven't even updated?
    Mr. Ferriero. That's right.
    Mr. Wester. That's right. The guidance issue precedes the 
IT problem.
    Mr. Connolly. Well, Lord almighty.
    Mr. Ferriero. Which is why EMPA is very important, to get 
that passed.
    Mr. Connolly. Yeah. By the way, why not use the cloud? I 
mean, our legislation would consolidate data centers throughout 
the Federal family. Why not move to the cloud? Do you have 
security concerns, Mr. Ferriero, with respect to the cloud such 
that we shouldn't do that as an alternative to paper backup?
    Mr. Ferriero. We are using the cloud in the National 
Archives. We're using the Federal cloud.
    Mr. Connolly. Okay. Because we heard from Mr. Koskinen last 
night that he was a little concerned about security, and I 
understand that concern, but one could make the argument, 
especially after the Lois Lerner computer crash, that actually 
security might be better in the cloud, in the private sector-
managed cloud, than, frankly, relying on these old, cranky, 
obsolete, hard-to-maintain systems in the Federal Government.
    Mr. Wester?
    Mr. Wester. I would say that the 6103 issues that were 
brought up last night are very serious concerns, and we have 
them as well for IRS records that we work with the IRS to 
maintain and provide access to. But your point is well taken, 
and it's actually one of the items within the directive to move 
the Federal Government to the cloud and ensure that as agencies 
move into the cloud that effective records management policies 
and practices are implemented.
    Mr. Connolly. I just want to say, Mr. Chairman, in closing, 
and I thank the chair for his indulgence, I understand some who 
want to pursue a conspiracy theory and try to use an isolated--
well, not such an isolated event, the crash of a computer at 
IRS, and ascribe to it all kinds of nefarious reasons. I prefer 
to say from an IT perspective, frankly, unfortunately, this is 
par for the course. This is what happens when we allow the 
degradation of our IT investments throughout the Federal 
Government, and I don't know how we can be surprised. And the 
fact that there were 3,000 computer crashes already this year 
in one agency, the IRS, I think makes the point that, sadly, 
what happened to Lois Lerner's computer is hardly unique. I 
thank the chair.
    Mr. Chaffetz. I thank the gentleman.
    Now recognize the gentleman from South Carolina, Mr. Gowdy, 
for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Archivist, I want to thank you again for coming to 
South Carolina. You were and remain a big hit with everyone who 
had a chance to hear you, and I had a number of people ask that 
you come back to South Carolina and that I not come back to 
South Carolina.
    So with respect to the retention of documents, can you give 
us, not as an expert, just 35,000-foot level, why is it 
important that we as a Republic retain documents?
    Mr. Ferriero. So that the American people can hold their 
government accountable, so that they can see for themselves how 
decisions were made, so that they can learn themselves from the 
original documents about our history.
    Mr. Gowdy. Right. There strikes me that there is a 
historical component, there is a constitutional component, so 
you can have checks on the separation of powers, and there is 
also a legal component. And you were gracious enough to brag 
about not being a lawyer earlier. We have an expert lawyer 
sitting beside you, so I am going to ask Ms. O'Connor what 
spoliation of evidence is.
    Ms. O'Connor. So I encountered that once in a case. And 
what happened was that after the case had begun, somebody who 
worked for one of the parties, without realizing the material 
was supposed to have been kept, destroyed it, burned it is what 
happened, and then it wasn't available for the trial.
    Mr. Gowdy. Right. And from an evidentiary standpoint what 
happens? There is a presumption that whatever you destroyed or 
altered would not have been good for you, right?
    Ms. O'Connor. So the judge had to go through an effort of 
evaluating whether or not there should be a negative inference 
from that.
    Mr. Gowdy. Well, the jury can decide that. The judge 
decides whether or not to charge that, but the jury ultimately 
determines whether or not to draw that inference. And it's 
important for us to note that the reason we have that 
spoliation of evidence in the law is so that people don't 
destroy evidence that would not be favorable to them. I mean, 
it's commonsensical. If you can get away with destroying 
evidence that is not favorable to you, everyone would do it. So 
we have to have a presumption built in.
    And with respect to my colleague, the former United States 
Attorney from Pennsylvania, you talked about search terms. I 
have got to be candid with you, I don't know what search term 
you would use if you're looking for an email where Lois Lerner 
responds ``yoo-hoo'' when somebody says a Democrat beat a 
Republican the night before. What search term would you 
recommend?
    Ms. O'Connor. So I haven't looked at them in a while, but 
I'm pretty sure ``Democrat'' and ``Republican'' were on the 
list.
    Mr. Gowdy. But what if ``Democrat'' and ``Republican'' 
weren't in the email? What if they used the name of the 
Democrat who beat the name of the Republican, and her response 
was ``yoo-hoo.''
    Ms. O'Connor. So most of the terms came from the majority 
staff of this committee and included many politicians, 
actually.
    Mr. Gowdy. But what's wrong with the search terms being 
``to'' and ``from''?
    Ms. O'Connor. Well, that would get you everything, which 
would----
    Mr. Gowdy. Right. That's my point.
    Ms. O'Connor. --purposes of reducing the amount to review 
in order to get----
    Mr. Gowdy. But why? Why reduce it? If you want access to 
all of the information, if you want access to all of the truth, 
why are you reducing the search terms? Why not just ``to Lois 
Lerner'' and ``from Lois Lerner''?
    Ms. O'Connor. Right. As I explained earlier, I can't 
remember if you were here, at the beginning of the project we 
met with the staffs of the four committees----
    Mr. Gowdy. Right. And it's important to note that that was 
your request to meet with them because you thought the original 
request was too voluminous. And my response is, when any 
administration, Republican, Democrat, Whig, Bull Moose, don't 
care, but when you come to a committee of Congress and you try 
to negotiation a reduction in the search terms because of time 
constraints or resources and this happens, let me tell you the 
next subpoena you're going to get is going to be simply ``to'' 
and ``from,'' and you can save yourself a trip to come over and 
try to negotiate the terms. It was done to make life easier for 
you, not for Congress. Agreed?
    Ms. O'Connor. Honestly, honestly, it was done in order to 
get you the material you wanted faster.
    Mr. Gowdy. Well, it didn't wind up happening. So shame on 
us if we let it happen again.
    What negative inference would you draw from the failure to 
retain the documents in this particular case.
    Ms. O'Connor. You're talking about Ms. Lerner's hard drive 
crash?
    Mr. Gowdy. No, what I'm talking about is the failure to 
retain, whatever the mechanism of the failure, whether it's 
intentional or just negligent. You have someone who said maybe 
the FEC will save the day. You have someone who said we need a 
project, but we need to make sure it's not per se political, 
and then the emails disappear. What negative inference would 
you draw, if you were just one of our fellow citizens watching 
this, you know that initially there was a denial of targeting, 
you know that she picked a very obscure ABA conference to 
disclose that targeting had taken place, you know that 
initially it was blamed on two rogue agents, in fact, Jay 
Carney perpetuated that myth, you know that Lois Lerner took 
the Fifth Amendment, you know that the President of the United 
States said there is not a smidgeon of corruption, and now 
you're told that the evidence doesn't exist, email don't exist. 
What negative inference, if you were just a regular citizen 
sitting at home watching this, and you've got that litany of 
failed defenses, those false exculpatory statements, and now 
you're told that evidence doesn't exist, what negative 
inference would you draw?
    Ms. O'Connor. One of the things that I found instructive in 
the material that became public in the last week was that Ms. 
Lerner had sent her hard drive to the Criminal Investigative 
Unit for them to attempt to recover it. And the inference that 
I would draw is that if she wanted intentionally to destroy the 
material she would not have sent it to the Criminal 
Investigation----
    Mr. Gowdy. Did she ever use her personal computer?
    Ms. O'Connor. I don't know.
    Mr. Gowdy. She did.
    Mr. Chaffetz. The gentleman's time has expired.
    Now recognize the gentleman from Vermont, Mr. Welch, for 5 
minutes.
    Mr. Welch. Thank you very much. Thank you, Mr. Chairman.
    A couple of things. First of all, I want to thank you all 
for being here, subpoena or not. I appreciate the work that you 
do.
    Second, I want to say a couple of things. One is, I am a 
strong supporter of congressional oversight, and I do believe 
that when Congress requests information it should be provided. 
But I have some significant concerns about the way we've 
proceeded on this hearing.
    When you go back to the basics here there is a very serious 
question about what happened to the emails, and we're 
investigating that. The IG has investigated that. But there is 
also a very serious question about the abuse of the 501(c)(4) 
status. And that, in my view, is a worthy topic of 
investigation. No group should be targeted because of their 
political affiliation, whether they're conservative or liberal. 
I totally agree with that. But no one should be allowed to 
abuse the 501(c)(4) status. That's worthy, in my view, of 
investigation. It's not a tax exemption, as Mr. Issa mentioned, 
but it's a way of funneling money under the cover of doing 
social welfare work which is really about political advocacy.
    And political advocacy is fine, but do it in the daylight, 
not in the dark, and don't undercut the merits and the 
legitimacy of 501(c)(4) social welfare organizations by turning 
them into political operations. And, frankly, I'd like to see 
our committee giving equal weight to that investigation. This 
dark money that's going into politics in my view is really 
pernicious for democracy.
    And it's terrible if we have any agency of government 
that's not providing requested information. There is always a 
fair question if there has been a computer crash, how did that 
happen? Was it intentional? But there is also this fundamental 
question about the money and politics and the use of the 
501(c)(4) organizations by liberal or conservative groups 
basically to hide the money that's going into political 
advocacy.
    A second thing Mr. Chairman, is that, yes, we have to 
examine these questions, but I do not think that jumping to 
conclusions and assuming the worst possible interpretation is a 
way to, A, give respect to folks who dedicate their lives to 
public service, whether it's in the IRS or any other agency; 
and B, any way to educate the American people about what the 
problems may be in an organization because the whole point of 
accuse first and examine facts second is to attack the very 
legitimacy of the organization that's being investigated.
    And I'd point out that when you lose information it does 
raise a question, but I know Mr. Issa, our chairman, during the 
Bush administration had to explain that oftentimes that can 
happen with computers. Was it innocent? Was it deliberate? We 
don't know.
    And one suggestion, talking to Mr. Lynch, who may discuss 
this, why not have the IG take a look at this? Why not have the 
IG do it? You know, we've got a partisan situation going on 
here that's getting in our way of getting to I think what is a 
shared goal of getting to the bottom of this.
    Chairman Issa. Would the gentleman yield?
    Mr. Welch. I will yield.
    Chairman Issa. This won't surprise you. The way this 
investigation started is I went to the IG, TIGTA, because they 
had the ability to look at 6103 and we were interested and they 
began that investigation. One of the problems is the IG was 
never given that drive, nor were any entities independent and 
outside the IRS, which is, you know, one of the reasons that as 
an IT background guy, I've never seen a disk drive that has 
zero left on it.
    Mr. Welch. Well, may I, reclaiming my time, thank you. And 
I thought that was a good move on your part. I think we're 
getting a little bit off the rails now, because I think if we 
got the IG to look into this question where essentially there 
is a motivation issue that both sides without the facts can 
come to their own conclusions, and usually we all come to 
conclusions to suit our political bias, I think it just creates 
a swamp, you know.
    The dysfunction that we have in this committee, Mr. Issa, 
as you know, and I appreciate your aggression, but there has 
got to be, in my view, a balance where, yes, we investigate 
real hard, but it doesn't so overwhelm that this fundamental 
question about the 501(c)(4) abuse, in my view, suddenly is not 
an issue. I mean, I was one of the people who was concerned and 
wrote a letter to the IRS saying, what's going on? Do your job. 
Investigate.
    And, you know, there's no free ride around here. If you're 
a taxpayer and you're not paying your taxes, I think the IRS 
should investigate you. I think if you're a 501(c)(4) 
organization and you're essentially a cover for a liberal or 
conservative political ideology and you're not doing social 
welfare work, you should lose your 501(c)(4) investigation.
    And thank you, Mr. Issa, for doing that with the IG 
initially, and I'd like to see us get back on track here and 
maybe they can help us out with the specific question that 
we're dealing with now.
    And I yield back.
    Mr. Chaffetz. I thank the gentleman. I'll now recognize 
myself for 5 minutes.
    Ms. O'Connor, the IG, the Inspector General issued their 
report on May 14, 2013. You were then appointed, I believe, on 
May 30 of 2013. What did you do? What's the first thing that 
you do when you walk onto this new role?
    Ms. O'Connor. I got a badge. I had some training. I think 
the 6103 training----
    Mr. Chaffetz. But how did you organize? Who did you bring 
into the room and say, all right, we need to move forward, this 
is what I got to do? Who do you bring into the room at that 
point?
    Ms. O'Connor. Well, it wasn't like that. I mean, it really 
was--the first and most important thing was the 6103 training, 
because----
    Mr. Chaffetz. Okay. So after you got trained, then what did 
you do?
    Ms. O'Connor. And then I believe I met with Mr. Werfel to 
see kind of what was on the plate and what the marching orders 
were.
    Mr. Chaffetz. Okay, after that, yeah?
    Ms. O'Connor. I can't remember the sort of play by play, 
honestly.
    Mr. Chaffetz. Who did you gather around you to get your job 
done?
    Ms. O'Connor. I didn't gather anybody around me to get my 
job done.
    Mr. Chaffetz. There was nobody, you just did it all by 
yourself?
    Ms. O'Connor. No. I mean, my job, as I explained earlier, 
was to advise the Commissioner on a variety of things. One of 
the things that I did was to work with a team that was fairly 
small at that time, but got very large later.
    Mr. Chaffetz. Who was on that team?
    Ms. O'Connor. It's a whole number of IRS people and it 
changed over time.
    Mr. Chaffetz. Go ahead and start with somebody. I'd like a 
list, please.
    Ms. O'Connor. I think the best way to get you accurate 
information on that would be to ask the IRS.
    Mr. Chaffetz. No, I'm asking you. You were the IRS at that 
point. You were the person in the room that they were reporting 
to. So you come with great title. Tell me who you were 
interacting with.
    Ms. O'Connor. The team had some 6103 experts on it. It had 
some tax litigators on it.
    Mr. Chaffetz. Who? Who? Name a person. I want actual names.
    Ms. O'Connor. Honestly, I would like to be able to have 
accurate and complete testimony, and it's going to be hard for 
me to recreate it.
    Mr. Chaffetz. Can you name even one person that you 
interacted with?
    Ms. O'Connor. Well, I certainly interacted with Mr. Werfel 
quite a lot.
    Mr. Chaffetz. Okay, Mr. Werfel. Who else?
    Ms. O'Connor. Mr. Wilkins was the Chief Counsel and I 
interacted with him.
    Mr. Chaffetz. We assume that, those are the people you 
reported to. I want to talk about who reported to you. Name 
some people that reported to you.
    Ms. O'Connor. I think that the best way to do it is
    to----
    Mr. Chaffetz. I know, but you're here in front of Congress, 
you knew this was going to happen. Name one person that you 
interacted with.
    Ms. O'Connor. I interacted with a lot of people.
    Mr. Chaffetz. I know you did, a lot of people. Name 
somebody.
    Ms. O'Connor. Who I interacted with?
    Mr. Chaffetz. Yes.
    Ms. O'Connor. The Deputy Chief Counsel, Chris Sterner.
    Mr. Chaffetz. Chris Sterner. Anybody in the IT arena?
    Ms. O'Connor. I didn't actually interact directly with 
people in the IT arena. There was somebody whose name was--I 
can't even remember his last name. I think his first name may 
have been Ben.
    Mr. Chaffetz. So a guy named Ben, a dude named Ben. Who 
else?
    Ms. O'Connor. I don't recall.
    Mr. Chaffetz. You were there 6 months. You had people 
around you that would jump at your very presence. Who are these 
people?
    Ms. O'Connor. Nobody ever jumped at my very presence, I can 
assure you of that.
    Mr. Chaffetz. I'd like to ask them that. Who are these 
people?
    Ms. O'Connor. Again, I didn't interact with the IT staff 
very much.
    Mr. Chaffetz. You were there 6 months. You had some people 
reporting to you, did you not?
    Ms. O'Connor. I didn't have any direct reports, no.
    Mr. Chaffetz. Did you have people that were responsive that 
you asked questions of?
    Ms. O'Connor. On any variety of issues----
    Mr. Chaffetz. Who did you ask questions of?
    Ms. O'Connor. I worked with a lot of people in the Chief 
Counsel's office. If we could get----
    Mr. Chaffetz. Ms. O'Connor, you're a very bright person, 
you're very bright, you're a very personable person. Why are 
you being so elusive. Why don't you just tell us who you asked 
questions of, who interacted with you? You haven't named a 
single person.
    Ms. O'Connor. I've named Deputy Chief Counsel Chris 
Sterner.
    Mr. Chaffetz. You named three people that you report to. I 
want to hear of people that you asked questions to, that ran, 
got the information, and then came back and gave you 
information. Name one person in that category.
    Ms. O'Connor. People who I asked questions of who ran and 
got me the information? I don't even think I can characterize 
anybody that way.
    Mr. Chaffetz. Did you ever ask anybody in the IRS to 
provide you information?
    Ms. O'Connor. Sure, yes.
    Mr. Chaffetz. Give me one example.
    Ms. O'Connor. In the Tax Exempt organization, the person 
who replaced Ms. Lerner, whose name is Ken Corbin, was somebody 
who I would call to ask for information about how the unit was 
working and----
    Mr. Chaffetz. Okay, there is one. How many people do you 
think you asked information of?
    Ms. O'Connor. Probably a lot of people.
    Mr. Chaffetz. Can you name more than one?
    Ms. O'Connor. I've named a couple now.
    Mr. Chaffetz. Why are you being so elusive?
    Ms. O'Connor. I'm not being elusive. I haven't been there 
for----
    Mr. Chaffetz. How long would it take you to get that 
information and provide that information to me?
    Ms. O'Connor. The IRS can provide that information to you.
    Mr. Chaffetz. Why can't you provide that information?
    Ms. O'Connor. Because I'm not there anymore and I don't 
have any records from when I was there.
    Chairman Issa. Mr. Chairman?
    Mr. Chaffetz. Yes.
    Chairman Issa. I think you may be unfair to the witness. 
The fact is that last night the Commissioner could not remember 
60 days ago who told him about the importance of losing those 
documents. Last night, he could not narrow 60 days--less than 
60 days ago within 30 days when he was told. I think that, in 
fact, the ability to remember at the IRS is simply limited.
    Mr. Chaffetz. Do you know Thomas Kane?
    Ms. O'Connor. I do.
    Mr. Chaffetz. Who's that?
    Ms. O'Connor. I think his title was Associate Deputy Chief 
Counsel.
    Mr. Chaffetz. And did you interact with him?
    Ms. O'Connor. I did.
    Mr. Chaffetz. I think my time has expired here. And in 
deference to what this committee does, I can't believe that 
you're not more candid with us and just telling us who you 
interacted with, a simple, easy question. It's hard to believe 
that it took 5 minutes to try to extract out a dude named Ben 
and one other person.
    I yield back. I'll now recognize the gentleman from 
Massachusetts, Mr. Lynch, 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I think sometimes the search for conspiracy is interfering 
with the meaningful oversight that we should be doing. I think 
sometimes my colleagues on the other side of the aisle are 
reaching for the most grandiose conspiracy theory and 
forgetting that we do have some evidence of wrongdoing here 
that we should be going after. I just want to try to refocus on 
that.
    In spite of all the conspiracy allegations, there is some 
evidence here before us--and I have been hearing from some of 
my colleagues on this side of the aisle that there is no 
evidence of wrongdoing. And look, I am not here to make excuses 
for the IRS. I am not here to, you know, to protect the IRS or 
to downplay what they have done here. But let me try to refocus 
here. There was serious wrongdoing on the part of the IRS here. 
There is evidence that they used improper search terms. They 
used: ``Tea Party'' search terms, ``patriot'' search terms. If 
you had a complaint in your file about government spending or 
taxation or if your case file, in applying for 501(c)(4) 
status, included statements that criticized how the government 
was run, the IRS targeted you. The IRS also asked 
inappropriate--asked for inappropriate information. They asked 
for the names of donors. They asked for the list of issues that 
the applicant cared about and what their positions were on 
those issues. They asked whether the applicant or officer 
intended to run for office. They asked the political 
affiliation of the applicant for the 501(c)(4).
    Now, Ms. O'Connor, are you aware--I know you weren't at the 
IRS when this analysis was going on, but you went there later. 
And also I think you might have been on some of the interviews 
we had with some witnesses from the IRS. Are you aware of an 
IRS BOLO, Be on the Lookout listing for groups with 
``progressive'' in their name?
    Ms. O'Connor. Yes.
    Mr. Lynch. Okay. Are you aware of evidence that the IRS 
employees treated progressive organizations in a similar manner 
as conservative groups?
    Ms. O'Connor. Certain, yes.
    Mr. Lynch. I ask unanimous consent, we actually have a 
report here of the IRS, entitled ``Inappropriate Criteria Were 
Used to Identify Tax-Exempt Applicants for Review.'' And we 
also have a letter here from Acting Commissioner Werfel that 
indicates the progressive groups that were also targeted.
    Ask unanimous consent that they be entered into the record.
    Mr. Jordan. [presiding.] Without objection, so ordered.
    Mr. Jordan. I would also ask unanimous consent to enter the 
report from the majority staff, ``Debunking the Myth that the 
IRS Targeted Progressives.''
    Mr. Lynch. My information is more recent and is completely 
accurate, and it includes a disavowal by the inspector general 
of your report, which he testified in.
    Mr. Jordan. I would stand behind the accuracy of this 
report as well. I am just saying we are going to enter this in 
the record and you are going to enters yours in the record.
    Mr. Lynch. Okay. We can fight it out.
    Mr. Jordan. All right. Thank you.
    Mr. Lynch. The IRS subsequently released information that 
the IRS targeted Emerge America, ACORN-affiliated group. Now, 
look, I am not saying this to mitigate the wrongdoing or the 
misconduct of the IRS. This makes it worse. It makes it worse 
that the IRS was actually violating the constitutional rights 
of progressive groups and conservative groups. This is 
wrongdoing. It doesn't help the conspiracy theorists, but it 
certainly indicates wrongdoing, serious misconduct on the part 
of the IRS, probably our Nation's most powerful agency. It's 
got information on health care, finances, knows everything 
about you. So they are violating the free speech of our 
citizens, violating their freedom of association of our 
citizens, violating the freedom to petition the government of 
our citizens, and violating I think the constitutional right 
against search and seizure because of the way they are 
conducting themselves.
    And this isn't just evidence; the IRS has stipulated this 
in their report. They said, Yeah, we did this. So we have some 
serious wrongdoing. And now, in pursuing the evidence of that 
wrongdoing, we have 27 months of emails disappear. And I am 
asking you, how do we restore the trust in this? How do we 
pursue this in a way that--look, I am not going after President 
Obama here, but I am going against the IRS because of their 
misconduct. And that's the thing we are overlooking here. In 
going for this grand conspiracy theory, you are overlooking the 
stipulated fact that the IRS conducted misconduct here. And I 
think we are missing what we should truly be going after. Can 
you suggest what we should be doing? Any of the witnesses here? 
In terms of getting to the bottom of this, getting to the IRS 
misconduct?
    Mr. Jordan. Witnesses, if someone wants to respond? Great. 
If not, we will move to our next.
    Mr. Lynch. Okay.
    Mr. Jordan. I thank the gentleman.
    The gentleman from Ohio is recognized.
    Mr. Turner. Thank you. I appreciate Mr. Lynch's statements 
that this was wrongdoing and misconduct. The issue that we have 
that we are all struggling with, which is how Mr. Lynch ended 
his question, is what do you do to pursue that wrongdoing and 
misconduct? We are still sitting here without a complete 
understanding of the basics of an investigation, which are who, 
what, when, where? Everybody knows the four Ws, who, what, 
when, where. And we know that the missing emails in part thwart 
the ability to complete that story, as also included is Ms. 
Lerner's failure to willingly testify before this committee. I 
want to put all that aside for a second.
    Ms. O'Connor, you are White House Counsel. I am a lawyer. 
You are a lawyer. I want to step away from the IRS problem and 
investigation for a minute and just have a comparative 
discussion, because I think in the responses there may be some 
misunderstanding with respect to the independent--the Treasury 
Inspector General for Tax Administration. And I would like to 
talk to you a minute about their powers. Not with the IRS, but 
just in general. I would like to compare the powers of the 
Treasury Inspector General for Tax Administration with the FBI. 
Because one of the things that we heard from the commissioner 
yesterday is, well, we are going to do--the Inspector General 
is going to do an investigation. And that is probably a good 
thing. There are many who don't believe it's enough. But you 
and I, having a discussion on a comparative just of authority 
and powers, perhaps can let other people decide whether or not 
that's sufficient investigation or whether an additional 
investigation is going to take it. So let's talk about the 
inspector general and the FBI. The inspector general's mission 
statement is that they were established under the IRS 
Restructuring and Reform Act to provide independent oversight 
of IRS activities. They promote the economy, efficiency, and 
effectiveness of the administration of the internal revenue 
laws. It is committed to the prevention and detection of fraud, 
waste, and abuse within the IRS. The Department of Justice says 
the FBI includes upholding and enforcing criminal laws of the 
United States. Pretty big distinction. So let's go down with 
some of those powers. Because the FBI is involved in criminal 
investigations, and the inspector general is involved in 
internal investigations in the IRS. We give them different 
powers. Let's go over some of those. Now, the inspector general 
does not have the ability to compel people to testify outside 
of the IRS. Isn't that correct?
    Ms. O'Connor. I believe that's correct.
    Mr. Turner. The FBI does. Correct?
    Ms. O'Connor. Yes.
    Mr. Turner. Yes. So when the inspector general undertakes 
an investigation of the IRS, they are only going to be able to 
interview those people that are there. Only the people at the 
IRS are the only ones that they can compel to testify. If there 
is somebody outside the IRS who may have been involved or have 
information about it, the inspector general falls short, 
doesn't have the ability to do that. They can't even do that 
with respect to contractors. So when people say the IG is doing 
an investigation, it's not the same. Let's go to another one. 
The IG doesn't have the ability to arrest anybody. Right?
    Ms. O'Connor. So I want to be helpful, but I am not an 
expert on the IG act.
    Mr. Turner. You know the IG cannot go and arrest someone. 
Right? You are a lawyer, I am a lawyer. Ms. O'Connor, you know 
this. You are the White House General Counsel. They wouldn't 
hire you unless you knew this basic--the five things I am going 
to ask you are real basic, simple comparatives. The IG cannot 
go arrest someone, right?
    Ms. O'Connor. I trust what you are saying, but I haven't 
reviewed the IG act.
    Mr. Turner. We both know the FBI can, right?
    Ms. O'Connor. Yes.
    Mr. Turner. Okay. Excellent. Warrants. The IG does not have 
an ability to execute a warrant; the FBI does. So the 
difference here is that the FBI can go seize things, where the 
inspector general has to request them like we do, and ask for 
things to be delivered to them. So the FBI can actually go in 
and take hard drives and take materials that could lead them to 
an investigation. The IG is in a responsive or requesting mode. 
Subpoena power.
    Again, the IG has that, but only of Treasury employees. The 
FBI, as you will agree, the FBI can subpoena anybody who is 
relevant to the investigation. Right?
    Ms. O'Connor. Yes.
    Mr. Turner. Okay. So the issue that we have here is when 
people say, well, we are doing an investigation, the IG is 
doing an investigation, you and I can agree it is not the same 
type of investigation the FBI would do. And the FBI's mission 
is enforcing the criminal laws of the United States. And as you 
know and as Mr. Lynch was saying, the concern that people have 
of this wrongdoing and misconduct is that perhaps a law was 
broken. Now, if you are going to do a criminal investigation, 
wouldn't you agree that the FBI is the one that should be doing 
a criminal investigation versus the IG?
    Ms. O'Connor. So my----
    Mr. Turner. I am not talking about the IRS, just in 
general. Just come with me on the issue of just in general if 
you have a criminal investigation and you are the White House 
Counsel, Ms. O'Connor, do you assign that to an inspector 
general or do you assign that to the FBI? Where would you put 
that as an attorney?
    Ms. O'Connor. My understanding of the situation here is 
that----
    Mr. Turner. No, we are not in a situation here. I am saying 
if there is a criminal matter and you are assigning it, do you 
assign it to the IG or the FBI? Come on, you can give me this 
one. You would give it to the FBI, right?
    Ms. O'Connor. I recall when I was at the IRS, that the IG 
had a number of deputies, one of whom was--his deputy for 
investigations. They seemed to be very hardworking.
    Mr. Turner. I am certain they are incredibly competent 
people, but by law, they are limited in their investigative 
powers. And the scope that they are given of their mission is 
not the scope we gave the FBI. We don't need five FBIs. So 
wouldn't you agree that if there is a criminal matter, you 
wouldn't choose the IG; you would choose the FBI.
    Ms. O'Connor. If the matter is what happened to a laptop 
within the IRS----
    Mr. Turner. No, I am not asking your opinion on this 
matter. Just criminal. I tell you what. It belongs in the FBI. 
The IG has very limited powers. They should not be the sole 
source of this investigative authority.
    Thank you.
    Mr. Jordan. I thank the gentleman.
    The gentleman, Mr. Davis, is recognized for 5 minutes.
    Mr. Davis. Thank you.
    Thank you very much, Mr. Chairman.
    Ms. O'Connor, let me continue the focus of your work during 
your tenure at the IRS, because supposedly that's the reason 
you were subpoenaed to testify here today. When were you hired 
by the Internal Revenue Service?
    Ms. O'Connor. May 30 of 2013.
    Mr. Davis. And it's my understanding that you had a role in 
assisting Acting Commissioner Werfel in complying with the 
numerous congressional investigations into IRS employees' 
handling of applications for tax-exempt status. Is that 
correct?
    Ms. O'Connor. Yes.
    Mr. Davis. And according to an August 2nd, 2013, letter 
from Mr. Werfel to this committee, and that would be back when 
you were still there, the Internal Revenue Service went to 
extraordinary lengths to cooperate with Congress. The letter 
explains that the IRS dedicated, ``more than 100 employees who 
are working diligently to gather documents, to review them, and 
protects the taxpayer-specific information in them as required 
by law.'' Is that correct? And if so, did you have a role in 
setting up that process?
    Ms. O'Connor. I had a role in advising and helping the 
people who were engaged in that process, yes.
    Mr. Davis. Thank you.
    Then, Mr. Chairman, I would ask unanimous consent to enter 
this August 2nd, 2013, IRS letter into the record.
    Mr. Jordan. Without objection, so ordered.
    Mr. Davis. Thank you.
    Ms. O'Connor, when the IRS set up the process, what was the 
goal?
    Ms. O'Connor. The goal was to get as much information as 
Congress and the four different committees and other 
investigators, such as the IG, to get them what they needed to 
be able to conduct their investigations, and to do it 
accurately and with care with regard to the redactions, and as 
quickly as we could.
    Mr. Davis. There appear to be a lot of confusion about why 
the IRS did not discover the lost emails earlier. So let's see 
if we can clear that up. It is my understanding that it was 
Congress, not the Internal Revenue Service, that prioritized 
what documents you searched for, and Congress, not the IRS, 
that provided the search terms. Is that correct?
    Ms. O'Connor. Yes, that's correct.
    Mr. Davis. Well, in addition to using Congress' search 
terms, what did the IRS do to further facilitate the production 
of documents?
    Ms. O'Connor. Among the things the IRS did was to ask 
lawyers and other staff people who were dedicated to things 
like implementing the tax laws and enforcing them to put aside 
their jobs and work full time to review documents. The IRS 
increased the IT resources to the effort, bought servers, got 
additional IT resources in order to stabilize a very large 
system. We also, I, personally, and Mr. Werfel as well, met 
with and talked with the staff of the investigative committees, 
who in addition to saying who the employees were, whose 
material they wanted, and which search terms they were 
interested in, they also had very specific requests for certain 
types of documents. For example, I would like the training 
materials, you know, from this period of time, things like 
that. And we worked hard to satisfy those sort of one-off 
requests, as well as getting to everybody the large body of 
material that was sought.
    And at the time at which I left, more than 400,000 pages of 
material I think had been produced. And I have read in the 
media that at this point, the IRS has produced somewhere near 
three-quarters of a million pages of material. And I think that 
it is a lot of material, and to have been able to produce in 
that period of time I think reflects a very serious effort to 
be able to provide what the committees were seeking in a speedy 
fashion.
    Mr. Davis. Let me ask you, how do you respond to 
allegations from Republican Members of Congress that you were 
part of some IRS plot to obstruct Congress?
    Ms. O'Connor. Well, it is not at all true. And I think that 
the record of the IRS while I was there and since then reflects 
very, very hard work and diligence at providing the materials 
that the investigating committees were seeking through them.
    Mr. Davis. My time is up. So I thank you very much.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Issa. [presiding.] We now go to the gentlelady 
from Wyoming, Ms. Lummis, for 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Some of our colleagues on the other side of the aisle have 
opined that maybe we are getting a little off base about the 
attention that we are focusing in this investigation.
    So I would like to focus back on some of my concerns about 
the failure of Lois Lerner to testify, her failure to testify 
truthfully about whether she broke no laws, whether she 
violated no rules, and whether she did nothing wrong. My 
concern here is if someone could come before this committee and 
say that and then assert their Fifth Amendment right against 
self-incrimination, and then subsequently this committee finds 
that their own emails refute the fact that she did nothing 
wrong and that she violated no laws, that we should be 
aggressive in trying to find those emails. We already have some 
of them. And some of those emails suggest that she was very 
actively involved in violating laws. We know that she gave 
confidential taxpayer information to another agency, and that 
that violates the law. We know that she specifically, while 
saying that it was rogue agents in Cincinnati who were involved 
in this, was actively involved herself in looking at, for 
example, Crossroads GPS, which is a Karl Rove-linked 
organization, Karl Rove being one of the agitators that the 
political left most dislikes.
    Here, as the Wall Street Journal editorial board writes, 
Ms. Lerner twice refused to testify before Congress; IRS 
General Counsel William Wilkins claimed 80 times that he 
couldn't recall events.
    And subsequently it goes on to explain that the most 
troubling new evidence are documents showing that Ms. Lerner 
actively corresponded with liberal campaign finance group 
Democracy 21 and the Campaign Legal Center, which had asked the 
IRS to investigate if conservative groups, including Crossroads 
GPS, were violating their tax-exempt status. After personally 
meeting with the two liberal outfits, Ms. Lerner contacted the 
director of the Exempt Organizations Examination Unit in Dallas 
to ask why Crossroads had not been audited.
    I believe that Ms. Lerner was appropriately held in 
contempt of Congress. I, quite frankly, believe that Ms. Lerner 
should be tried for her violations and that she should become 
an example that's held up to Federal employees and especially 
employees in the IRS who violate the rights of Americans in 
their role and capacity as public servants. And that is why I 
am interested in knowing why her emails are not--all of her 
emails are not available. That's why I want to know why we find 
out just now that her email crashed. So I believe that this 
investigation is on the right track; it's perfectly legitimate. 
And I am of the opinion that this inquiry is well placed.
    You know, every single night the University of Wyoming 
backs up every email for the entire State of Wyoming. And every 
night the State of Wyoming backs up every email for the 
University of Wyoming, along with their own. So they not only 
have a backup system, they back up each other so there is a 
redundant backup system for all of the emails in the Wyoming 
State Government and the University of Wyoming, because they 
are reciprocating with each other. Why that kind of thing isn't 
happening in an agency like the IRS, where people are relying 
on the veracity of what's going on there to get consistent, 
clear, rules and regs interpretation, guidance to taxpayers, 
and fair treatment of the people of this country, is beyond me.
    Now, here is my question, Ms. O'Connor. During your time so 
far in the White House, have you been aware of any instances of 
the White House reviewing documents requested by Congress under 
the guise of White House equities?
    Ms. O'Connor. As I explained earlier, and I am not sure if 
you were here yet, I came today to be able to answer questions 
about my time in the IRS, the 6 months that I was there, which 
is what the chairman's letter to me said that this hearing 
would be about. And so I am not prepared to talk about my other 
experiences today.
    Mrs. Lummis. Now, if we were to subpoena you and ask you to 
talk about whether you were aware of any instances of the White 
House reviewing documents requested by Congress under the guise 
of White House equities, would you come back and answer that 
specific question?
    Ms. O'Connor. Well, I have been here for a long time today. 
But what I would say about the issue of questions about the 
White House, I am happy to work with you and the staff to see 
if we can accommodate and provide some of the information or 
what we can do. I am happy to provide that kind of assistance 
to support legitimate oversight inquiries.
    Mrs. Lummis. Thank you, Ms. O'Connor.
    Mr. Chairman, I yield back.
    Chairman Issa. Thank you.
    Mr. Cummings, you have anything further? I am going to 
close. I was going to let you close first.
    Mr. Cummings. Let me ask you something, Ms. O'Connor.
    Going back to some of Mr. Gowdy's questions. I was sitting 
here trying to figure this out. I take it that you went to--you 
said the search terms were given to you by the committees. Is 
that right?
    Ms. O'Connor. Yes.
    Mr. Cummings. So Mr. Gowdy made a big deal that maybe you 
shouldn't have used search terms; you should have just said 
from and to.
    I assume, and correct me if I am wrong, I take it what you 
were all trying to do was to get the relevant documents out 
first? Is that how that works? In other words, because you had 
the 6103 issues, you had to go through the documents. I take it 
that--how did it come about that you even got the committees to 
even be giving you search terms? You follow what I am saying?
    Ms. O'Connor. I do. The volume of material, what I recall, 
was there were 82 or 83 employees. And the way the IRS went 
about collecting their material was just to pull all of their 
emails that were on whatever computer they had, and from 
employee to employee, that was massive. And because of 6103, 
which is the law that requires the IRS to protect taxpayer 
information and, therefore, in this instance, to redact 
taxpayer information, every scrap of that information would 
have to be reviewed before it's produced. And that would take a 
very, very long time. And in order to make it much more 
efficient and to get you the documents about the subject at 
issue, the tax-exempt organizations and their screening process 
and how applications were processed, we said to the committees, 
If you could tell us the terms you want us to use, we will zero 
in on the material in this vast body of information and get you 
the material about the tax exempt organization process. Our 
staffs were very cooperative and provided us----
    Mr. Cummings. And staff knew what was going on. They knew 
what was going on there. And you were trying to get the 
information out as out as fast as you could that the committees 
wanted. Is that right?
    Ms. O'Connor. Yes.
    Mr. Cummings. Now, so when you get that information, let's 
say, for example, you use the search terms, you cull out the 
search term emails, what happens with the ones that are left? 
In other words, so you have gotten--you are trying to get them 
out, but you still got some left that might very well have 
information in them that the committee would be interested in. 
And a lot has made of making sure that you got--we got all of 
the emails. So what happens? Do they go back then and look at 
those? Do you follow what I am saying?
    Ms. O'Connor. So when I left the IRS, we were still 
producing the rolling productions of documents that had been 
culled through the search term process. And I don't know 
whether than from what I have seen in the media, what exactly 
they did after I left, but my understanding with from what I 
read, is they pulled at least Ms. Lerner's and I don't know if 
other people's from the initial set that hadn't hit the search 
terms in order to provide them to the committees.
    Mr. Cummings. Do you know whether that was the plan to go 
back and pick up the ones that you may not have gotten at the 
beginning? Do you follow me? After the initial search terms?
    Ms. O'Connor. At the point at which I left, which was mid-
stream, the plan was to continue complying with the subpoenas. 
A lot of the decisions were being made just sort of day to day 
what's next. But the intent was to continue to comply with the 
subpoena.
    Mr. Cummings. Thank you.
    Mr. Ferriero, you know, this whole thing of 2,000 computers 
crashing, we are in trouble, aren't we? I mean, in IRS, 2,000 
so far this year.
    Mr. Ferriero. As I said earlier, the state of technology in 
the Federal Government is not where it should be.
    Mr. Cummings. I mean, that's a lightweight description. It 
sounds like we are in the Dark Ages. I am not trying to be 
funny. If you got computers crashing, 2,000, and we are only 
half a year, and there was something that was entered into the 
record not long ago about services for repair of computers, 
services not being needed, and apparently, it said something 
about not delivered, there is one thing to have the money. It's 
another thing to spend the money effectively and efficiently. I 
mean, from what you have seen, are we spending the money 
effectively and efficiently in these various agencies, 
including IRS? Or do we need to do something differently?
    Mr. Ferriero. I think we are on the right track. We have--
for the first time, we have the CIO Council and the Records 
Management Council working together on solutions. We have 
engaged the industry in developing new tools to help the 
agencies do their work more efficiently. So we are on the right 
track. And from what I just heard about your support for 
increased funding for IT, that makes me very optimistic.
    Mr. Cummings. I want to thank you all for being here.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you. I now want to correct the record 
as best I can. I know Mr. Lynch will not agree with this. But 
he cited a number of reports, August 19, 2013, and a follow-up 
report. I just want to make it clear our comprehensive staff 
report of April 7, 2014, ``Debunking the Myth That the IRS 
Targeted Progressive Groups,'' stands for itself. And it comes 
after these earlier questions. I know none of you are here for 
the core question of----
    Mr. Lynch. Mr. Chairman?
    Chairman Issa. No, it is my time--for the core questions of 
who was targeted. So we are going to leave that aside, and we 
will let the report speak for itself. I think the paper record 
is fine.
    Mr. Lynch. I actually asked the witness, though, Mr. 
Chairman. I derived that information from the witness using the 
documents there. I wasn't relying on the documents alone. I had 
independent, you know, reassurance from the witness what the 
document indicated. That's why I used it.
    Chairman Issa. From Ms. O'Connor.
    Mr. Lynch. Ms. O'Connor, yes.
    Chairman Issa. Somebody who had absolutely nothing to do 
with the underlying investigation.
    Mr. Lynch. No, she was actually there when the witnesses 
from the IRS came forward and said that they had targeted 
progressive groups. That was her testimony.
    Chairman Issa. Okay.
    Ask unanimous consent I start over then.
    Ms. O'Connor, what's your independent knowledge that 
progressive groups were targeted and treaty unfairly by the 
people in Cincinnati, Lois Lerner, or others in Washington?
    Ms. O'Connor. So I now can't remember the exact question. 
But----
    Chairman Issa. That's my question.
    Ms. O'Connor. The BOLO spreadsheets had progressive and 
other terms on them that reflected progressive organizations.
    Chairman Issa. Isn't it true they had the couple of terms 
that might have done it in another section, and when they 
looked for reconstituted ACORN, that was a criminal enterprise, 
that was an entity that went out of business because it was 
found to have committed crimes? So is that really the same as 
looking at all Tea Party Patriots?
    Now, I will ask you the question again, not a rhetorical 
question that we know the answer to. What treatment are you 
aware of to any progressive group that gave them unfair 
questions, hauled them over the coals as to who their donors 
were, whether anyone in their organization intended to run for 
political offices, or any of that treatment that has been 
specified as what conservative groups went through. What is 
your knowledge of that?
    Ms. O'Connor. So my knowledge is limited. And I want to 
make that clear.
    Chairman Issa. What is your firsthand knowledge of any of 
that?
    Ms. O'Connor. My only firsthand knowledge of it is the fact 
that I did see some of the emails, and not all of them, that 
were produced in the period of time when I was at the IRS. And 
the email production was not complete, obviously. I didn't 
conduct a----
    Chairman Issa. So you have no personal knowledge of abuse 
of progressive groups or liberal groups at all. Studies have 
shown that there were a number of names that came up that were 
not all conservative patriot groups. But the unfair treatment 
of these groups, the 2 years and more of withholding their 
approval, granting them neither a yes nor a no, do you have any 
knowledge--do you have any knowledge of that treatment or 
mistreatment occurring to any progressive left-leaning group?
    Ms. O'Connor. So my knowledge is not direct from being 
there. I saw some of the emails. I saw, for example----
    Chairman Issa. I just want to make sure I understand, your 
answer is, no, you do not have direct knowledge.
    Mr. Lynch. Mr. Chairman, the title of the report that you--
--
    Chairman Issa. No, wait a second. This is my time. Does the 
gentleman have a question, a point of order?
    Mr. Lynch. Yeah. What's the title of your report? It says, 
``Debunking the Myth of Progressives Being Targeted.''
    Mr. Cummings. Did you shut the mike off?
    Chairman Issa. No, I stopped the clock to let him go as 
long as he wants.
    Anything else, Steve?
    Mr. Lynch. Okay. Sir, my line of questioning was to counter 
the assertion in your report, and the title of your report that 
progressives were not targeted. The questions to the witness 
indicated that progressive search terms and BOLOs were used to 
target progressive groups. That's the simple point I was trying 
to make. And I think it's relevant, and I think it's 
admissible. That's all.
    Chairman Issa. And Steve, I appreciate that. But as you 
know, there were additional names added sort of after the jig 
was up that brought additional names, progressive names in. But 
no evidence has been found of their being unfairly treated, 
which is different than a search term.
    Mr. Lynch. They were targeted, though. They were targeted. 
They are going out--it is relevant in both cases of the IRS 
intent, which is to go after certain people with those search 
terms.
    Chairman Issa. The IRS' intent, Lois Lerner's intent has 
been well demonstrated in over a thousand pages of multiple 
reports.
    Mr. Lynch. And it includes these progressive names as well. 
That's all.
    Chairman Issa. Lois Lerner's intent was to overturn 
Citizens United, which she objected to. And her emails show 
that. That's what we really have. We have the President shaking 
his fist at Citizens United, and then her saying in public 
statements, they want us to do it, they want us to do it.
    Mr. Lynch. That is a characterization.
    Chairman Issa. No, those are her words.
    Ms. O'Connor, just one more time, you have no firsthand 
knowledge of mistreatment of progressive groups, do you?
    Ms. O'Connor. All of my knowledge is based on having seen--
--
    Chairman Issa. Okay. So written records that have been 
provided to this committee would be the best for both sides to 
put out in their reports.
    Ms. O'Connor. Written records, and the records of the 
witnesses that you have spoken with, yes.
    Chairman Issa. Okay. Now, we called you here because in 
fact you were at the IRS during the time in which a vast amount 
of documents were delivered pursuant to search terms. Is that 
correct?
    Ms. O'Connor. I think you called me here because I was 
there for 6 months during----
    Chairman Issa. During the time that vast amounts of 
documents were delivered pursuant to search terms. You have 
been testifying to that. I just wanted to set the stage. During 
that time, in August, because in fact, we were getting 
voluminous amounts of documents based on search terms not of 
our choosing, but of everybody's choosing, they just kept 
adding to it, and we were not getting the--and they were being 
prioritized. We were getting, quote, progressive stuff 
seemingly first. And the minority was using it at hearings and 
so on. And we knew that Lois Lerner was beginning to emerge as 
a key figure. I issued a subpoena, and item one on my subpoena 
said all documents on Lois Lerner, all her emails. Did you have 
any question but that I was saying stop, at least as to this 
committee, both sides, stop bombarding us with documents that 
your organization would constantly say we have--we have given 
you 64,000, we have given you 64 million, we have given you 64 
billion. What we wanted was Lois Lerner's emails, and you never 
went and looked for them for the rest of your time. They were 
not safeguarded. It was not discovered they weren't there. We 
asked for Lois Lerner because she became a person of interest 
for being the center of the unfair treatment and the deliberate 
effort to overturn Citizens United using the power of the IRS. 
So we issued a subpoena. That subpoena was very clear. And we 
reissued it in February. We wanted all her emails, while the 
IRS continued to, as you said it, slowly go through these 
search terms. Right? And deliver other documents first. You 
have testified to that today, they delivered other documents 
first even after our subpoena was issued.
    Ms. O'Connor. Your subpoena asked for a number of things.
    Chairman Issa. It asked for, and we made it very clear in 
testimony and in communication, we wanted all her emails.
    Ms. O'Connor. I understand that. The subpoena was much 
broader than that. And all the material that the IRS continued 
to produce was responsive to your subpoena as well as to the 
other committees. And I know it's----
    Chairman Issa. It's a question of first.
    Ms. O'Connor. --frustrating that there were many committees 
that were investigating, but there were.
    Chairman Issa. Right. And I am just going to close with 
something.
    Ms. O'Connor. There were a lot of demands.
    Chairman Issa. I want to make sure one thing since you were 
at the IRS. You said four committees. There is really two 
committees times two sides of the Capitol. There is us and our 
Senate co-partners, there is the Ways and Means and Senate 
Finance. Senate Finance and Ways and Means have the ability to 
see all documents unredacted. Right?
    Ms. O'Connor. Yes.
    Chairman Issa. Did you, in fact, as soon as you got a 
printout, just send it to them in bulk?
    Ms. O'Connor. No.
    Chairman Issa. No. So you applied much of that $10 million 
worth of time and effort going through and selecting what to 
give. You never gave those documents in bulk to the 6103 
entities that were allowed to receive it. Had you given all of 
Lois Lerner's emails, looked for all of them and given them to 
Ways and Means and Senate Finance, then you would have known 
there were substantial amounts missing much sooner, wouldn't 
you?
    Ms. O'Connor. Could I just address what you just said?
    Chairman Issa. Absolutely.
    Ms. O'Connor. The reason that even the committees that can 
receive the 6103 information didn't just get massive quantities 
of anybody's emails is because from the beginning of the 
investigation, their request letters were specific. They wanted 
certain kinds of material. They wanted training materials. They 
wanted BOLO lists. They wanted emails to and from this person 
or to and from that person. There was a lot of very specific 
material. And even your subpoena, I think, identified a number 
of different witnesses that you wanted. And I don't believe it 
said only give us the first one first. That said, I did hear 
you in August say that you had a priority on her emails. I 
think I heard Mr. Jordan say that Mr. Wilkins was a priority of 
him. I mean, there was a lot of competing demands. And the IRS 
tried to balance all of that. It was really a challenge. I 
think at the end of the day, a lot of information has been 
provided. And I gather--I completely understand that it's 
frustrating to not get, you know, the stuff that you wanted 
first. But I will say that they were doing their best to try to 
get a lot of material to a lot of requesters.
    Chairman Issa. Mr. Lynch, you have anything?
    Mr. Davis?
    Then I will close with no further questions, other than a 
short comment. I have spent almost 30 years in business. I have 
gone from non-network to PC networks to Novell networks to 
Microsoft networks. I have gone through Lotus Notes and 
exchange servers. I have gone through a lot of technology. 
Today, my entire companies are run on an Amazon cloud. It backs 
up every day. And incrementally, I can name any day for as far 
back as I want to go the date, and they can restore in a very 
short period of time a functional copy so that I can search it. 
The tools exist at my former company, which is not a large 
company. It's a few hundred million dollars. They exist to 
search the entire record of years' worth of millions of emails 
and millions of other factual events, invoices and the like, 
and do so, compliant with Federal rules of discovery, because, 
in fact, the Federal rules of discovery do not tolerate you 
saying, here is paper, sort through it, or our dog ate it, or 
we destroyed everything by simply not backing it up after 6 
months.
    So as this committee, including Mr. Cummings, looks at 
holding the Federal Government and all agencies to a level, we 
will look to the Federal Government's own rules of discovery, 
the Federal Government's own rules of what we hold the private 
sector responsible for.
    I think for the Archivist, Mr. Ferriero, there is no 
question that if we held ourselves to the same level that we 
hold corporate America for, and the IRS holds them accountable 
for, we would get a very different result. The IRS, in fact, 
insists on direct transparency when they are doing an audit as 
to data and information. That's expected. And in fact, Price 
Waterhouse Coopers also insists on that. We have gone too long 
having excuses. We purge after 45 days. We purge after 6 
months. We allow 90,000 disk drives that are unsupervised, 
including laptops, to download 6103 information and go home. 
Not too many years ago, we had one of the great scandals, 
millions of Social Security numbers of our veterans that were 
on a laptop that left. Reforms were insisted at that time to 
try to protect information. Very clearly, no one knows what was 
on Lois Lerner's laptop that entered and left as a portable, as 
I understand it, or any of these others. The protections that 
we expect the private sector to do, and we are handling a case 
right now where the FTC holds the private sector responsible if 
there is a loss of personal information, we don't hold 
ourselves responsible for.
    So I am delighted, Ms. O'Connor, that you accepted our 
subpoena.
    Mr. Ferriero, Mr. Wester, I am even more delighted that you 
are partners in us trying to bring a level of accountability to 
the Federal Government to maintain the important records the 
American people have a right to.
    And I look forward to follow-up investigations and follow-
up legislation, including portions of Mr. Cummings' bill if we 
can find offsets for the cost of the bill, so that we can, in 
fact, bring up the standards of the Federal Government in 
accountability. Because the American people right now do not 
believe or trust that, in fact, we are getting the honest 
answer from the IRS. And much of it is based on not getting 
prompt answers to questions. But much of it is based on the 
systematic failure to retain documents for a period of time 
that the American people assume the documents will always be 
kept at. I want to thank you. I believe this panel was unique 
in that it really had people that you ordinarily wouldn't see 
next to each other. But it played well together for a problem 
we are dealing with, and Mr. Ferriero and Mr. Wester, for a 
problem we are going to deal with together for many years.
    I now recognize the ranking member.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I just wanted to say as I was listening to you--first of 
all, I thank you also for being here.
    And thank you, Mr. Chairman. I will be very brief.
    But Ms. O'Connor, I know the IRS employees are watching 
this. And I want them to know that we appreciate their efforts. 
When I listen to what you were saying, the four committees and 
what you had to do, and these employees are working very, very 
hard. And I just want to thank them for what they do. And I 
know it's kind of difficult sometimes. And I know you are no 
longer there. But you said they were working very, very long 
hours, hard hours trying to deal with various priorities, 
getting all kinds of information from staff, and trying to 
balance all of that. And I am sure many of them have come under 
criticism. But I just want them to know, on behalf of our 
Nation, we appreciate them.
    Chairman Issa. Thank you.
    And there is always one more thing that arrives at the end 
of a hearing that gets into the record.
    This one is from Mr. Cummings. H.R. 1234, his bill that has 
been mentioned several times, has a score by the Congressional 
Budget Office of only $15 million for the entire government, 
which says very clearly that, in fact, the $10 million claimed 
last night by the Commissioner would seem to be an excess cost 
compared to CBO's government-wide score in order to meet Mr. 
Cummings' legislative initiative.
    So I look forward to working with the ranking member and 
Mr. Ferriero to try to make this a reality. And I guarantee you 
we will find the $15 million. And with that, we stand in 
recess.
    [Whereupon, at 1:13 p.m., the committee was adjourned.]









                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
